<html>
<title> - OVERSIGHT HEARING ON ENERGY INFRASTRUCTURE AND ENVIRONMENTAL JUSTICE: LESSONS FOR A SUSTAINABLE FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       ENERGY INFRASTRUCTURE AND EN-
                        VIRONMENTAL JUSTICE: LESSONS 
                          FOR A SUSTAINABLE FUTURE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, July 14, 2020

                               __________

                           Serial No. 116-37

                               __________

       Printed for the use of the Committee on Natural Resources
       

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov          
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-129 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
          


                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Joe Cunningham, SC                   Daniel Webster, FL
Nydia M. Velazquez, NY               Liz Cheney, WY
Diana DeGette, CO                    Mike Johnson, LA
Wm. Lacy Clay, MO                    Jenniffer Gonzalez-Colon, PR
Debbie Dingell, MI                   John R. Curtis, UT
Anthony G. Brown, MD                 Kevin Hern, OK
A. Donald McEachin, VA               Russ Fulcher, ID
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Jesus G. ``Chuy'' Garcia, IL
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      ALAN S. LOWENTHAL, CA, Chair
              PAUL A. GOSAR, AZ, Ranking Republican Member

Mike Levin, CA                       Doug Lamborn, CO
Joe Cunningham, SC                   Bruce Westerman, AR
A. Donald McEachin, VA               Garret Graves, LA
Diana DeGette, CO                    Liz Cheney, WY
Anthony G. Brown, MD                 Kevin Hern, OK
Jared Huffman, CA                    Rob Bishop, UT, ex officio
Matt Cartwright, PA
Raul M. Grijalva, AZ, ex officio

                              -----------                                
                                
                                CONTENTS

                              -----------                              
                                                                   Page

Hearing held on Tuesday, July 14, 2020...........................     1

Statement of Members:

    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     4
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3

Statement of Witnesses:

    Obed, Sarah, Senior Vice President, External Affairs, Doyon 
      Limited, Fairbanks, Alaska.................................    26
        Prepared statement of....................................    27
    Patterson, Jacqueline, Senior Director, Environmental and 
      Climate Justice Program, NAACP, Baltimore, Maryland........     7
        Prepared statement of....................................     9
    Prochnik, Julia, Founder JASenergies, San Francisco, 
      California.................................................    13
        Prepared statement of....................................    15
    Rose, Ella, Union Hill Resident, Buckingham County, Virginia.    11
        Prepared statement of....................................    12

Additional Materials Submitted for the Record:

    Buckingham County Ministers, November 20, 2018 Letter to 
      Governor Ralph Northam on the Atlantic Coast Pipeline......     5
    List of documents submitted for the record retained in the 
      Committee's official files.................................    45

 
 OVERSIGHT HEARING ON ENERGY INFRASTRUCTURE AND ENVIRONMENTAL 
           JUSTICE: LESSONS FOR A SUSTAINABLE FUTURE

                              ----------                              


                         Tuesday, July 14, 2020

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 1:02 p.m., via 
WebEx, Hon. Alan S. Lowenthal [Chairman of the Subcommittee] 
presiding.
    Present: Representatives Lowenthal, Levin, Cunningham, 
DeGette, Huffman, Grijalva (ex officio); Gosar, Westerman, and 
Hern.

    Mr. Lowenthal. The Subcommittee on Energy and Mineral 
Resources will come to order. The Subcommittee is meeting today 
to hear testimony on energy infrastructure and its relationship 
to environmental justice and lessons that we have learned for 
building a more sustainable, clean energy future.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member or their designees. I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Subcommittee Clerk by 5 
p.m. today or at the close of the hearing, whichever comes 
first.
    Hearing no objection, so ordered.
    Without objection, the Chair may also declare a recess, 
subject to the call of the Chair.
    Hearing no objection, so ordered.
    As described in the notice, statements, documents, or 
motions must be submitted to the electronic repository at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="61292f3322050e0212210c00080d4f090e1412044f060e174f">[email&#160;protected]</a>
    Additionally, please note that, as with in-person meetings, 
Members are responsible for their own microphones. Members can 
be muted by staff only to avoid inadvertent background noise. 
Finally, Members or witnesses experiencing technical 
difficulties should inform Committee staff immediately.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal. It is an undeniable fact that in our 
country, it is often the very wealthy and politically connected 
who have an outsized voice in the public decision-making 
process. When a privileged community decides it doesn't want 
something in its backyard, quite often, it is the backyards of 
the less powerful, less connected, and less wealthy that end up 
bearing the burden.
    Fossil fuel companies know the toll that their 
infrastructure takes on public health and environment. They 
know that up front. They look to site projects where they will 
face the least amount of political and public resistance, 
which, unfortunately, is often in poor, underserved, and under-
represented communities.
    That is why for decades people of color and low-income 
communities have suffered from fossil fuel companies routing 
pipelines, drilling for oil and gas, siting refineries, and 
building power plants in their neighborhoods and near their 
homes. This pattern holds true for other types of fossil fuel 
infrastructure across the country. For example, in 
Pennsylvania, multiple studies of the Marcellus Shale region 
found there were a disproportionate number of minority and low-
income residents living in areas near oil and gas wells.
    For too long, companies paid little public price for this 
decision making, which was based on both systemic racism and 
unconscious bias.
    Just as white Americans can no longer ignore the systemic 
inequalities in policing, in public health, and in the criminal 
justice system, we cannot ignore the racism that is ingrained 
in the systems that keep our lights on, our cars moving, our 
homes heated in the winter and cooled in the summer.
    Thanks in large part to brave activists who are willing to 
put their bodies on the line in order to highlight racial 
injustices, there has been an enormous public awakening.
    Two recent announcements on high-profile pipelines can be 
directly attributed to environmental justice activism. Over the 
Fourth of July weekend, Dominion Energy and Duke Energy 
announced the cancellation of the Atlantic Coast Pipeline, a 
600-mile-long natural gas pipeline that had one of its permits 
revoked because of a lack of consideration for environmental 
justice issues when proposing to place a compressor station in 
a historically black community in Virginia, one that was 
founded by freed slaves. One of our witnesses today is from 
this community, Ella Rose, and she will share with us the 
threat that this pipeline posed for her community.
    Thank you, Ella Rose, for your years of activism.

    The very next day after the cancellation of the Atlantic 
Coast Pipeline, a Federal judge announced that the Dakota 
Access Pipeline must be completely emptied and shut down by 
August while the U.S. Army Corps of Engineers completes a more 
thorough environmental review, which validates many of the 
concerns raised by the Standing Rock Sioux Tribe, who faced 
water cannons and police violence while protesting against this 
pipeline in sometimes freezing temperatures.
    I am proud of the work done by this Committee to address 
environmental justice, led by our Full Committee Chair, Raul 
Grijalva, and our Subcommittee colleague, Representative 
McEachin. Their work on H.R. 5886, the Environmental Justice 
for All Act, was recently included by the Select Committee in 
their comprehensive report to address the climate crisis.
    That legislation is designed to ensure that we don't make 
the same mistakes as we look forward to the infrastructure 
requirements of clean energy resources, like wind and solar, on 
public lands.
    While new wind and solar farms will reduce pollution, lower 
energy costs, and create new jobs, we must ensure that 
infrastructure planning, especially transmission, respects 
local input and improves environmental justice outcomes. Clean 
energy on public lands should be leveraged to ensure a just and 
equitable transition away from fossil fuels, especially for 
minority and tribal communities that have been the most 
impacted by pollution.
    We need to write a new playbook, one that rights historical 
wrongs, addresses the existential threat of climate change, and 
builds a more just and equitable future.
    I want to thank the witnesses for appearing before the 
Committee, and I really look forward to your testimony.

    [The prepared statement of Mr. Lowenthal follows:]
 Prepared Statement of the Hon. Alan S. Lowenthal, a Representative in 
                 Congress from the State of California
    It is an undeniable fact that in our country, it is very often the 
wealthy and politically connected who have an outsized voice in the 
public decision-making process. When a privileged community decides it 
doesn't want something in its backyard, it is the backyards of the less 
powerful, less connected, and less wealthy that end up bearing the 
burden. Fossil-fuel companies know the toll that their infrastructure 
takes on public health and the environment. They look to site projects 
where they will face the least amount of political and public 
resistance, which is often in poor, underserved, and underrepresented 
communities.
    That's why for decades, people of color and low-income communities 
have suffered from fossil-fuel companies routing pipelines, drilling 
for oil and gas, siting refineries, and building power plants in their 
neighborhoods and near their homes. This pattern holds true for other 
types fossil-fuel infrastructure across the country. In Pennsylvania, 
multiple studies of the Marcellus Shale region found that there are a 
disproportionate number of minority and low-income residents living in 
areas near oil and gas wells.
    For too long, companies paid little public price for this decision 
making, which was based on both systemic racism and unconscious bias.
    Just as white Americans can no longer ignore the systemic 
inequalities in policing, in public health, and in the criminal justice 
system, we cannot ignore the racism ingrained in the systems that keep 
our lights on, our cars moving, our homes heated in the winter and 
cooled in the summer.
    Thanks in large part to brave activists who are willing to put 
their bodies on the line in order to highlight racial injustices, there 
has been an enormous public awakening.
    Two recent announcements on high profile pipelines can be directly 
attributed to environmental justice activism. Over the fourth of July 
weekend Dominion Energy and Duke Energy announced the cancellation of 
the Atlantic Coast Pipeline, a 600-mile long natural gas pipeline that 
had one of its permits revoked because of a lack of consideration for 
environmental justice issues when proposing to place a compressor 
station in a historically black community in Virginia, one that was 
founded by freed slaves. One of our witnesses today is from this 
community, Ella Rose, and she will share with us the threat that this 
pipeline posed to her community.
    The very next day after cancellation of the Atlantic Coast 
Pipeline, a Federal judge announced that the Dakota Access Pipeline 
must be completely emptied and shut down by August while the U.S. Army 
Corps of Engineers completes a more thorough environmental review, 
validating many of the concerns raised by the Standing Rock Sioux 
Tribe, who faced water cannons and police violence while protesting 
against the pipeline in sometimes freezing temperatures.
    I'm proud of the work done by this Committee to address 
environmental justice, led by our full Committee Chair Raul Grijalva 
and our Subcommittee colleague Representative McEachin. Their work on 
H.R. 5886, the Environmental Justice for All Act, was recently included 
by the Select Committee in their comprehensive report to address the 
climate crisis.
    That legislation is designed to ensure that we don't make the same 
mistakes as we look forward to the infrastructure requirements of clean 
energy resources like wind and solar on public lands.
    While new wind and solar farms will reduce pollution, lower energy 
costs, and create new jobs, we must ensure that infrastructure 
planning, especially transmission, respects local input and improves 
environmental justice outcomes. Clean energy on public lands should be 
leveraged to ensure a just and equitable transition away from fossil 
fuels, especially for minority and tribal communities that are most 
impacted by pollution.
    We need to write a new playbook, one that rights historical wrongs, 
addresses the existential threat of climate change, and builds a more 
just and equitable future.

                                 ______
                                 

    Mr. Lowenthal. I now recognize Ranking Member Gosar for his 
opening statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman Lowenthal. And thanks to the 
witnesses for taking the time to join us today to discuss 
planning for energy infrastructure.
    I would like to first note my disappointment in the recent 
cancellation of the proposed Atlantic Coast Pipeline (ACP). The 
project sponsor cited the risk and uncertainty associated with 
ongoing litigation as the primary reason for canceling the 
project.
    The ACP proposed to transport cheap, clean-burning, 
American-produced natural gas across West Virginia, Virginia, 
and North Carolina, creating approximately 17,000 well-paying 
jobs, union jobs, and $2.7 billion worth of economic activity 
in the process.
    The project was also expected to generate about $4.2 
million in local tax revenue every year to the communities 
along the pipeline route. One such community is Union Hill, 
Virginia, in Buckingham County. The pipeline proposed called 
for a location of a compressor station in this county, as the 
pipeline would need to connect to the existing Transco 
Pipeline, which runs through that county.
    The project sponsors worked with the local community to 
create the Greater Union Hill Development Corporation and 
offered the organization $5 million to put toward projects for 
the betterment of Union Hill's community. Some of these 
projects included new recreational facilities, a new health 
clinic, job training for the project at a local community 
college and a fully funded year-round fire station, as the town 
of Union Hill had recently lost theirs due to the lack of 
funding. The project sponsors had committed to hiring at least 
25 percent of the workforce from the local community in a 
county with 10 percent unemployment. This project would have 
also allowed local manufacturing facilities to switch from 
diesel to natural gas to power their operations.
    Five local pastors recognized the potential of this project 
to improve life in their community and signed this letter of 
support for the ACP. They noted that, once the project sponsors 
made an effort to engage with the community, they gained a 
better understanding of the residents and their needs and made 
a financial commitment to community development projects.
    I would like to submit that for the record; did you get 
that, Alan?
    Mr. Lowenthal. Without objection.

    [The information follows:]
Submission for the Record by Rep. Gosar

                                                  November 20, 2018

The Honorable Ralph S. Northam
Governor
Commonwealth of Virginia
1111 East Broad Street, 3rd Floor
Richmond, VA 23219

    Dear Governor Northam:

    We greet you as clergy members and religious leaders in Buckingham 
County to share our opinion about Dominion Energy and the Atlantic 
Coast Pipeline. In the beginning, Dominion did not really have an 
understanding of our community or our concerns. They thought everyone 
in Buckingham County thought the same about the pipeline. But we are 
all different and hold individual opinions. While Dominion may have not 
fully understood our community and its history initially, over the past 
few months, they have worked hard and tried to learn more about us. 
They have been here many times and met with people in Buckingham and 
our communities on different occasions. We greeted them with respect 
and they treated us the same, as we can all continue to learn from each 
other in this process. We are operating in good faith that Dominion is 
trying to help Buckingham by providing jobs for our neighbors and their 
families who only want to make an honest living and be safe. That is 
not too much to ask.

    Our meetings with Dominion have resulted in a positive support 
package for Buckingham County and the Union Hill area. The support 
package focuses on keeping the community safe and revitalizing the 
community. The public safety package includes about $1,520,000 for 
salary support for emergency responders, facility upgrades, a dedicated 
emergency channel and emergency equipment. Approximately $3,600,00 is 
being provided to improve community health, education and economic 
development opportunities through building a Community Wellness, 
Education and Economic Development Center, community park and event 
pavilion in the Union Hill community. They also helped established the 
Greater Union Hill Community Development Corporation, which will take 
the lead in making sure these decisions come from the community and are 
open to everyone and that Dominion makes good on their commitment.

    We know that some other people think the compressor station and 
pipeline issue is discriminatory and against black people. But a lot of 
this information is incorrect, and we do not feel this is the case. In 
fact, most of the people living in the area around the compressor 
station are white. Regardless of who is affected, all people, voices 
and opinions matter and it's not just one group.

    We are committed to holding up our end for our community. We will 
work with the people at Dominion and the Greater Union Hill Community 
Development Corporation to ensure that our community, especially our 
most vulnerable residents, benefit from the construction of the 
Atlantic Coast Pipeline.

            Sincerely,

        Joe Chambers, Jr.,            Joii Goodman,1
        First Baptist Church          CCM

        Sharon Williams,              George Robert Woodson,
        Jerusalem Baptist Church      Chestnut Grove Baptist Church

        Joseph Scruggs,
        New Hope Baptist Church

                                 ______
                                 

    Dr. Gosar. My colleagues have responded to the cancellation 
of this project with glee and are here today to take a victory 
lap, celebrating the loss of 17,000 new union jobs that 
disappeared the instant ACP was canceled. They claim that we 
will make up for these missed opportunities for job creation 
with cleaner burning energy with a massive scale-up in 
renewable projects someday, if these projects can overcome 
NEPA, if they can find funding, if they can clear the NIMBYism 
that threatens to stop every major project.
    In the meantime, my colleagues sign onto the pie-in-the-sky 
proposals like the Green New Deal and pass bill after bill 
through this Committee designed to kill conventional energy 
development. The so-called Unity Task Force, made up of 
staffers from the Biden-Sanders camps and Representative 
Ocasio-Cortez, have naively called to end carbon-based 
electricity generation by 2035 and net-zero emissions in the 
United States by 2050.
    At the same time, my colleagues block Republicans' attempts 
to fast-track renewable energy developments on public lands. 
They refuse to mark up Representative Fulcher's bill to promote 
geothermal energy because it would speed up geothermal 
exploration through the use of a categorical exclusion. The 
Majority included my bill in the Public Lands Renewable Energy 
Act in their partisan highway bill earlier this month, but 
strangely left out language that would have included the Forest 
Service lands and targeted planning for renewable energy 
development. How sad.
    If we are going to take smart planning for renewable energy 
on public lands seriously, I encourage my colleagues to work 
with us in two critical areas: First, NEPA reform and securing 
our endless litigation under NEPA. We must engage in meaningful 
NEPA reform if we ever wish to see a significant increase in 
renewable generation and transmission on Federal lands.
    Further, we must acknowledge that increased demand for 
renewable energy will drive up the demand for critical 
minerals, which are integral to these technologies. Cobalt, for 
example, is required for electric vehicles, satellites, and 
wind turbines to function. Sixty percent of the global cobalt 
supply is mined in the Congo, where abhorrent child labor 
practices are well-documented, and China now controls at least 
half of all the cobalt production in that country.
    Fortunately, the proposed Twin Metal Mines in Minnesota 
would serve as a rare source of domestic cobalt, but, of 
course, my colleagues aim to shut that project down as well, 
passing language to do so through the Appropriations Committee 
just last week.
    Our inaction on critical minerals has consequences. We have 
sat idly while China has gained almost full global control over 
dozens of important minerals, putting our medical, 
manufacturing, technology, and energy supply chains at their 
mercy. The American people experienced the consequences of 
their over-reliance on China firsthand in recent months, and I 
think we all agree that the status quo is unacceptable.
    If we choose not to engage on these two critical topics, 
NEPA reform and domestic mining investment, the vibrant U.S. 
economy, powered by significant renewable energy generation, 
will remain just that, a fantasy. Delaying the development of 
new natural gas pipelines only increases our reliance on 
foreign oil and gas while American jobs hang in the balance.
    The American people are tired of the delays caused by 
endless litigation, delayed jobs, delayed investment in their 
communities, and delayed economic certainty that feels like it 
will never come. It is time for us to stop delaying, stop 
letting litigation and regulation prevent us from modernizing 
our infrastructure and start building.
    With that, Chairman, I yield back.

    Mr. Lowenthal. Thank you, Ranking Member Gosar, for your 
opening statement.
    Now I will introduce today's witnesses. Ms. Jacqueline 
Patterson is the Senior Director of the Environmental and 
Climate Justice Program at the NAACP. Ella Rose is a resident 
of Union Hill, Virginia, and worked for many years as an 
activist against the now canceled Atlantic Coast Pipeline. 
Julia Prochnik is the founder of JASenergies, a consulting firm 
which specializes in renewable energy transmission. And, 
finally, we have Sarah Obed, the Senior Vice President of 
External Affairs at Doyon Limited, an Alaskan Native Regional 
Corporation.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes but that 
their entire written statement will appear in the hearing 
record. When you begin, the timer will begin, and it will turn 
orange when you have 1 minute remaining. I recommend that 
Members and witnesses jointly use the grid view of the timer so 
that they may pin the timer onto their screen.
    If your testimony is complete, please remember to mute 
yourself to avoid any inadvertent background noise. I will also 
allow the entire panel to testify before questioning the 
witnesses.
    The Chair now recognizes Ms. Patterson to testify.

      STATEMENT OF JACQUELINE PATTERSON, SENIOR DIRECTOR, 
 ENVIRONMENTAL AND CLIMATE JUSTICE PROGRAM, NAACP, BALTIMORE, 
                            MARYLAND

    Ms. Patterson. Thank you so much. Hopefully you can hear 
me. Yes, OK, good.
    If he were here today, 10-year-old Thomas of Jacksonville, 
Florida, could share his part of the story of the complex 
relationship between our energy infrastructure and the health 
and well-being of black communities. Thomas lives just 2 miles 
from a coal-fired power plant. He has severe asthma and has to 
stay home from school on poor air quality days. When Thomas 
stays home, his parents, who don't have paid sick leave, miss 
income while Thomas loses critical ground in his educational 
advancement.
    Mr. Hartwell of Charles Town, West Virginia, who is a coal 
miner, is in a profession where 76,000 of his comrades have 
lost their lives to black lung disease, yet he feels trapped in 
the only job he has ever known, one that puts food on his 
family's table, provides health care, and guarantees a pension.
    When Grandma Maisie of St. Louis, Missouri, was asked about 
whether she would be in favor of a hike in her electricity bill 
to finance investment in energy efficiency, she responded that 
she would gladly pay more if it meant that she didn't have to 
take her grandbaby to the emergency room for his asthma attacks 
driven by pollution from power plants.
    Ms. Egland of Gulfport, Mississippi, says there has to be a 
better way than her $400-per-month summer energy bills. She and 
her husband are on a fixed income as retirees in a state with 
such high energy burden that some people pay upwards of 30 
percent of their income on electricity.
    These aren't just one-off examples. Each of these is an 
illustrative indicator of a widespread pattern of systemic 
energy injustice. In our ``Coal Blooded'' report and ``Fumes 
Across the Fence-Line'' report, we describe how black 
communities are more likely to live in the shadows of coal 
plants and oil and gas refineries. These fossil fuel facilities 
pollute our communities with mercury, arsenic, lead, sulfur 
dioxide, nitrogen oxide, methane, and benzene--toxins that are 
tied to respiratory, digestive, and circulatory illnesses, 
cognitive and behavioral challenges, and endocrine disruption. 
Impacts include cancer clusters, poor birth outcomes, adults 
who are less likely to smoke but more likely to die of lung 
disease, and children who are two to three times more likely to 
die of an asthma attack.
    Through our partners, we have heard of missing and murdered 
Indigenous women around the pipelines and man camps of the oil 
and gas industry in South Dakota and beyond. In our report, 
``Lights Out in the Cold: Reforming Utility Shut-Off Policies 
as if Human Rights Matter,'' we chronicle families who paid the 
price of poverty with their very lives, whether they were 
burning down their homes in using candles or space heaters, or 
dying in their sleep from carbon monoxide poisoning from 
bringing a generator inside for safekeeping, or the multiple 
examples of respirator-dependent people who had their 
electricity cut off over a $60 energy bill.
    In our report, ``Ten Equity Implications of the COVID-19 
Pandemic,'' we spoke of how the situation has severely 
exacerbated energy insecurity as well as how, according to 
Harvard University, pollution from energy production creates 
particulate matter that has been tied to our differential 
COVID-19 susceptibility and mortality.
    In our ``In the Eye of the Storm'' toolkit, we detail 
impacts of the excessive greenhouse gas emissions that have us 
in the crosshairs of catastrophic climate change, which also 
disproportionately impacts our communities.
    In our ``Fossil Fueled Foolery'' report, we detail how 
profits from pollution are invested in anti-clean air and anti-
clean energy lobbying to maintain a status quo that is a death 
sentence for too many of our communities.
    But it doesn't have to be that way: Robert Wallace of 
BithGroup Technologies, a multi-million dollar tech company in 
Baltimore; Jihan Gearon, formerly of the Black Mesa Water 
Coalition, which owns its own energy infrastructure in 
Flagstaff; NAACP leader Rosemary Harris Lytle in Colorado 
Springs, who started the PowerUp Employment Project to train 
formerly incarcerated persons in solar installations; Denise 
Fairchild of Emerald Cities Collaborative paved the pathway for 
high-road careers in renewable energy. All of these leaders and 
more have seen the promised land.
    In our ``Just Energy Policies'' report, ``Power to the 
People'' toolkit, and ``Unleashing the Power of the People'' 
report, we lift up the community-building work of NAACP leaders 
in Oregon, Maryland, Indiana, Mississippi, Illinois, and 
beyond, as well as partners: Kentuckians for the Commonwealth, 
Soulardarity, Co-Op Power, People's Solar Energy Fund, and the 
Local Clean Energy Alliance, Native Renewables, and so many 
more. We have not only seen what is possible, but we have been 
inspired by what is already happening, and our only task is to 
scale up.
    In closing, if we believe that Black Lives Matter, if we 
deeply value taking the knee of white supremacy off the neck of 
Black America, if we sincerely want to end the inhumane 
practice of sacrifice zones poisoning entire communities, if we 
truly want to legislate upholding human and Earth rights, we 
must dismantle a utility business model that withholds life-
saving heating, cooling, or electricity for a respirator from 
impoverished households while filling the coffers of utility 
CEOs to the tune of an average $9.8 million in annual 
compensation. We must advance a radical transformation, a just 
transition to a new economy. We must have a system that puts 
power in the hands of the people, literally and figuratively. 
Thank you.

    [The prepared statement of Ms. Patterson follows:]
Prepared Statement of Jacqui Patterson, Senior Director, Environmental 
                   and Climate Justice Program, NAACP
    Ten-year-old Thomas of Jacksonville, Florida can tell an 
illustrative tale of the complex relationship between our energy 
infrastructure and the health and well-being of black communities. He 
lives 2 miles from a coal fired power plant. He has severe asthma and 
has to stay home from school on poor air quality days. When Thomas 
stays home from school, his parents, who do shift work without paid 
leave, lose income, while Thomas loses critical ground in his 
educational advancement.

    Grandma Maisie of St. Louis, MO could further elaborate on the 
complexities. When she was asked about whether she would be in favor of 
a hike in her electricity bill so that the utility could invest in 
energy efficiency measures, she responded that she would gladly pay 
more, if it meant that she didn't have to take her grandbaby to the 
emergency room due to his asthma attacks because of pollution from 
power plants.

    Mr. Hartwell of Charles Town, West Virginia would say that there 
are no easy answers. He is a coal miner who is in a profession where 
76,000 of his comrades have lost their lives due to black lung disease. 
Yet he feels trapped in the only profession he has ever known that puts 
food on his table, provides health care, and guarantees a pension.

    Ms. Egland of Gulfport, MS keeps saying there has to be a better 
way than the $400 monthly energy bills she pays during the summer while 
she and her husband are on a fixed income in a state with such high 
energy burden that some people pay upwards of 30 percent of their 
income on electricity.

    These aren't just one-off examples. Each of these is an 
illustrative indicator of a widespread pattern of systemic energy 
injustice:

    In our Coal Blooded Report, we found that 68 percent of African 
Americans live within 30 miles of a coal fired power plant and our 
Fumes Across the Fence-Line Report describes how African American, 
Latino American, and Native American communities we are more likely to 
live in the shadows of oil and gas refineries. These fossil fuel 
facilities pollute our communities with mercury, arsenic lead, sulfur 
dioxide and nitrogen oxide, methane, and benzene--toxins that are tied 
to respiratory, digestive, and circulatory illnesses, cognitive and 
behavioral challenges and endocrine disruption. For us that spells 
cancer clusters, poor birth outcomes, adults who are less likely to 
smoke but more likely to die of lung disease, and children who are 2-3 
times more likely to die of asthma attacks.

    While we are more likely to suffer the impacts of exposure to 
pollution from energy production, we are less likely to have the 
benefit of energy. In our report titled, Lights Out in the Cold: 
Reforming Utility Shut Off Policies as If Human Rights Matter, we 
chronicle family after family that have paid the price of poverty with 
their very lives whether they are burning down their houses with 
candles or space heaters, or dying in their sleep from carbon monoxide 
poisoning from bringing a generator inside, or the multiple examples of 
respirator dependent sick people who had the source of energy for their 
lifeline cut off over a $60 energy bill.

    In our report on the 10 Equity Implications of the COVID-19 
Pandemic we spoke of how the pandemic has severely exacerbated energy 
insecurity as well as how pollution from energy production creates 
particulate matter that has been tied by Harvard University to our 
COVID-19 susceptibility and mortality.

    Through our coalition building with the groups involved in the 
Extreme Extractive Energy convening, we heard of missing and murdered 
indigenous women around the pipelines and man-camps of the oil and gas 
industry.

    In our In the Eye of the Storm Toolkit and Equity in Climate 
Resilience Training, we detail the impacts of the excessive greenhouse 
gas emissions that have us in the crosshairs of catastrophic climate 
change which also disproportionately impacts economically and 
politically disenfranchised communities.

    And In our Fossil Fueled Foolery Report we detail how profits from 
pollution are invested in anti-clean air and anti-clean energy lobbying 
to maintain a status quo that is a death sentence for too many in our 
society, the oft disenfranchised, whom the Bible refers to as ``the 
least of these.''

    However, Robert Wallace the African American President and CEO of 
BithGroup Technologies, which is a multi-million dollar clean tech 
company; Jihan Gearon, Executive Director Emeritus of the Black Mesa 
Water Coalition in Flagstaff, Arizona which owns its own energy 
infrastructure; Rosemary Harris Lytle, President of the NAACP Rocky 
Mountain Area Conference, who started a PowerUp Employment project in 
Colorado Springs, Colorado, for formerly incarcerated persons to be 
trained in the new energy economy; and Denise Fairchild of Emerald 
Cities Collaborative which is creating high road careers in renewable 
energy. All of these leaders and more have seen the promised land!

    In our Just Energy Policies Report we shared data from the National 
Renewable Energy Laboratories that clearly says we have extensive wind 
and solar potential from Alaska to Florida and in between.

    In our Power to the People Toolkit, we have shared how we can 
develop microgrids, create jobs, and ensure access to clean energy for 
all!

    In the Our Communities, Our Power Toolkit, we describe 
comprehensive models of developing and financing community building 
anchored by clean energy development.

    In our Unleashing the Power of the People Report we uplift the work 
of NAACP leaders in like Oregon, Maryland, Indiana, Mississippi, and 
Illinois resulting in policies and practices that center human rights 
in the new energy economy.

    In our work with partners like, Kentuckians for the Commonwealth, 
Soulardarity, Co-Op Power, People's Solar Energy Fund, the Local Clean 
Energy Alliance, Native Renewables, and so many more, we have not only 
seen what's possible. We've seen what's already happening.

    Our only task is to scale up!!

    If we are truly serious about Black Lives Mattering; If we deeply 
value taking the knee of white supremacy off of the neck of Black 
America; If we sincerely want to end the inhumane practice of sacrifice 
zones and the poisoning of entire communities of African Americans, 
Latino Americans, Indigenous Nations, Low income white American 
communities, and others with toxins; If we truly want to legislate 
upholding human rights and preservation of the earth . . . We must aim 
to deconstruct a utility business model that will withhold life-saving 
heating or cooling or the electricity to power the respirator of an 
oxygen-dependent sick person all while lining the pockets of the 
utility baron to the tune of an average of $9.8 million in annual 
compensation. We must advance a radically transformative transition to 
a new energy economy.

    We must have a system that puts power, literally and figuratively, 
in the hands of the people. ALL people. Thank you!!

                                 ______
                                 

    Mr. Lowenthal. I want to thank you, Ms. Patterson.
    The Chair now recognizes Ms. Rose. Welcome to the 
Committee, Ms. Rose. You have 5 minutes.

STATEMENT OF ELLA ROSE, UNION HILL RESIDENT, BUCKINGHAM COUNTY, 
                            VIRGINIA

    Ms. Rose. Thank you. My name is Ella Rose, and I was born 
and raised in Nelson County, Virginia. I retired to Buckingham 
County, a neighboring county, about 8 years ago.
    I learned about the Atlantic Coast Pipeline and the 
associated compressor station in 2014. A neighbor invited me to 
a church meeting where a newly organized group, Friends of 
Buckingham, were conducting a meeting to share information and 
concerns and to learn more about what this would mean for our 
neighborhood.
    The more I learned, the more I realized that I had to 
protect my home and community. This was especially so when I 
learned that the location of the compressor station, a very 
large, noisy, polluting infrastructure, was on the land only 
150 feet from my front door.
    There were originally three considerations for the 
placement of the compressor station. Dominion Energy decided to 
place it in our 84 percent African American neighborhood of 
Union Hill. Opposing the pipeline and the compressor station 
became a full-time job for me as I became more and more active.
    This was not the plan I had for my retirement. I had spent 
much of my life working in cities, and they were noisy and 
chaotic. This home that I had just moved into 2 years before 
and had taken many years to pay for, was the peace and quiet 
that I had always hoped for. I enjoy the wildlife nearby, 
including looking out of my window to see deer, turkey, and 
occasionally a bear. These are simple pleasures, and it is very 
important to me to be able to enjoy them.
    Although it was not something that I was used to doing, I 
began to speak at public hearings. It started with the local 
ones, which were necessary for Dominion Energy to obtain for 
the county, such as a special use permit, as the rural area of 
Union Hill was zoned for agriculture. I also spoke at the 
Federal Energy Regulatory Commission (FERC) hearing and later 
at multiple hearings with the Virginia Department of 
Environmental Quality (DEQ).
    Despite my efforts to make my voice heard, I felt largely 
ignored by the local government, FERC, and Virginia DEQ. No one 
from the Federal Government had come to talk to the community 
about this project, and Dominion acted like the pipes were 
already in the ground. The Department of Environmental Quality 
finally came 4 years later, at the invitation of Friends of 
Buckingham and only after we had raised the public awareness of 
the location in our low-income and African American 
neighborhood.
    The attitude from Dominion was that the project was 
inevitably going to happen, and we needed to accept it. This is 
what divided the community. Many who had not been coming to our 
meetings weren't as informed as some of us in the neighborhood, 
and the community decided to take the deal Dominion was 
offering, such as a community center.
    Many of us who were on the other side of this were not 
invited to those meetings. So, deals were struck based on the 
compressor station being built. I was not included in any of 
those negotiations nor was the Friends of Buckingham, where I 
was now a Council member.
    My concerns about the compressor station were multiple. I 
was very concerned about the air quality. As I was so close, I 
would have been forced to breathe emissions on a daily 24/7 
basis for the rest of my life in this location. I was deeply 
concerned that I would develop respiratory problems or other 
medical conditions as a result of these emissions. My sister-
in-law, who lives across the road, already has a respiratory 
problem, as do many others in our neighborhood community.
    I was aware that there would be blowdowns, when a large 
amount of emissions would be blown into the air. When Dominion 
first started talking about these blowdowns during the local 
meetings with our Board of Supervisors, they said they would 
only occur every few years. Over time, the information changed, 
with at last count being multiple times per week. It seemed 
that we were getting a lot of misinformation. This did not 
increase my trust in them.
    I was also concerned about the constant noise and what it 
would do to my stress level. I was additionally afraid of what 
the pipeline, with all the digging and trenching, would do to 
my shallow well, my only source of drinking water, which was 
the same for many other community members.
    I was also troubled by the reason why my neighborhood was 
selected for the location of the compressor station. My 
neighborhood is predominantly African American. It is 84 
percent African American, settled after emancipation by the 
enslaved Freedman people who worked the plantations in the 
area. The environmental impact studies never indicated this. It 
is one of the reasons I believe we won in the Fourth Circuit 
Court.
    DEQ did not take into consideration who lived there and the 
disproportionate impact on us. I believe that they picked this 
location and not the other two they had identified because they 
did not think we would speak up. Our lives count, and we should 
not be a sacrifice zone for financial interests.
    Thank you for this opportunity to speak about my 
experiences.

    [The prepared statement of Ms. Rose follows:]
   Prepared Statement of Ella Rose, Union Hill Resident, Buckingham 
                            County, Virginia
    My name is Ella Rose and I was born and raised in Nelson County, 
Virginia. I retired to Buckingham County, a neighboring county about 8 
years ago. I learned about the Atlantic Coast Pipeline and the 
associated compressor station in 2014. A neighbor invited me to a 
church meeting where a newly organized group, Friends of Buckingham, 
were conducting a meeting to share information and concerns and to 
learn more about what this would mean for our neighborhood. The more I 
learned the more I realized that I had to protect my home and 
community. This was especially so when I learned that the location of 
the compressor station, a very large, noisy polluting infrastructure, 
was on land only 150 feet from my front door. There were originally 
three considerations for the placement of the compressor station. 
Dominion Energy decided to place it in our 84 percent African American 
neighborhood of Union Hill. Opposing the pipeline and compressor 
station became a full time job for me as I became more and more active. 
This was not the plan I had for my retirement.
    I had spent much of my life working in cities and they were noisy 
and chaotic. This home that I had just moved into 2 years before and 
had taken many years working to pay for was the peace and quiet that I 
had always hoped for. I enjoy the wildlife nearby including looking out 
my windows to see deer, turkey and occasionally a bear. These are 
simple pleasures and it is very valuable to me to be able to enjoy 
them.
    Although it was not something I was used to doing I began to speak 
at public hearings. It started with the local ones which were necessary 
for Dominion Energy to obtain from the county, such as the Special Use 
Permit as the rural area of Union Hill was zoned for Agriculture. I 
also spoke at the Federal Energy Regulatory Commission Hearings and 
later at multiple hearings with the Virginia Department of 
Environmental Quality.
    Despite my efforts to make my voice heard I felt largely ignored by 
the local government, FERC and Virginia DEQ. No one from the Federal 
Government had come to talk to the community about this project and 
Dominion acted like the pipes were already in the ground. The 
Department of Environmental Quality finally came 4 years later at the 
invitation of Friends of Buckingham and only after we had raised the 
public awareness of the location in our low income and African American 
neighborhood.
    There was an attitude from Dominion that the project was inevitably 
going to happen and we all needed to accept it. This is what divided 
the community. Many who had not been coming to our meetings and weren't 
informed as some of us in the community, decided to take the deals that 
Dominion was offering such as a community center. Many of us who were 
on the other side of this were not invited to those meetings. So deals 
were struck based on the compressor station being built. I was not 
included in any of those negotiations nor was the Friends of Buckingham 
where I was now a Council member.
    My concerns about the compressor station were multiple. I was very 
concerned about the air quality as I was so close. I would have been 
forced to breath the emissions on a daily 24/7 basis for the rest of my 
life in this location. I was deeply concerned that I would develop 
respiratory problems or other medical conditions as a result of these 
emissions. My sister-in-law who lives across the road already has 
respiratory problems as do many others in our community. I was aware 
that there would be blowdowns when a larger amount of the emissions 
would be blown into the air. When Dominion first started talking about 
these blowdowns during the local meetings with our Board of Supervisors 
they said they would only occur once every few years. Over time the 
information changed with at last count being multiple times per week. 
It seems that we were getting a lot of misinformation. This did not 
increase my trust in them. I was also concerned about the constant 
noise and what it would do to my stress levels. I was additionally 
afraid of what a pipeline with all the digging and trenching would do 
to my shallow well, my only source of drinking water, which was the 
same for many other community members.
    I was also troubled by the reason my neighborhood was selected for 
the location of the compressor station. My neighborhood is 
predominately African American. It is 84 percent African American, 
settled after emancipation by the enslaved Freedmen people who worked 
the plantations in the area. The Environmental Impact Studies never 
indicated this. It is one of the reasons I believe we won in the Fourth 
Circuit. DEQ did not take into consideration who lived there and the 
disproportionate impact on us. I believe that they picked this location 
and not the other two they had identified because they did not think we 
would speak up. Our lives count and we should not be a sacrifice zone 
for financial interests.

    Thank you for this opportunity to speak about my experiences.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Ms. Rose.
    As members of this Committee know, I do not strictly adhere 
to the limits. I would like Members and also panelists to try 
to keep their remarks to the 5 minutes, but if you go slightly 
over, I will not penalize you. And I allow both Republicans and 
Democratic Members to do that, and staff.
    Now I would like to recognize Ms. Prochnik to testify.
    Ms. Prochnik, you have 5 minutes for testimony or slightly 
more.

     STATEMENT OF JULIA PROCHNIK, FOUNDER JASENERGIES, SAN 
                     FRANCISCO, CALIFORNIA

    Ms. Prochnik. Thank you. Can you hear me OK?
    Mr. Lowenthal. Yes, we can hear you very clearly.
    Ms. Prochnik. OK, great. Thanks.
    Thank you, Chairman Lowenthal and members of the Committee. 
It is an honor to be here with all of you and my fellow 
panelists to testify today.
    I stand in solidarity with the black communities deeply 
harmed by our social injustices and inequalities. As a mother 
with young children, I am committed to a clean energy future, 
an inclusive economy for the benefit of all, and a just and 
equitable society. It cannot come to pass without acknowledging 
and overcoming insidious discrimination.
    As we become increasingly dependent on electricity, the 
United States needs to modernize the grid, expanding capacity 
and improving reliability for a strong, prosperous future. 
Clean energy will help us achieve this task and recover from 
the current COVID-19 recession, but we must act and think 
differently to ensure diverse stakeholders, including 
disadvantaged and frontline communities, Black and Brown 
organizations, are at the table, participating in and 
benefiting from each step toward a brighter future.
    I will cover challenges and opportunities facing the 
electric grid in two themes: Inequities of the grid, and 
inclusive planning. The electric grid is the economic backbone 
of our country. As with every other aspect of the Nation, it 
needs greater inclusivity and equality. In the last 9 years, 
U.S. power companies announced the retirement of more than 546 
coal-fired power units, most of which are located in frontline 
or disadvantaged communities or on tribal lands. Another 17 
gigawatts, about three times what Washington, DC uses, of coal-
fired capacity will retire by 2025.
    In April 2019, renewable energy overtook coal for the first 
time in the United States, providing 23 percent of our power 
compared to coal's 20 percent. Historically, planning has 
sidestepped social and climate justice concerns. As grid 
generation changes, transmission changes too. Public policies 
promoting 100 percent clean energy and carbon reduction seek 
economic stimulus, and market and regulatory certainty. 
Community transition is not always at the top of the list and 
must be part of the plan.
    There is no one-size-fits-all solution. To change the 
inequities in planning a community benefits framework is 
recommended as an integrated approach that simultaneously 
considers the demand and supply network, as well as the land 
footprint and the system as a whole.
    Expanding access to data and information will help decrease 
the pressure on frontline and disadvantaged communities, who 
are continually exploited by fossil fuels. Attention must be 
paid to the unique characteristics of rural and Indigenous 
communities. When siting transmission lines and renewable 
energy, it is essential to have inclusive policy discussions to 
discuss options and involve communities in decisions on how 
best to reduce land and community impacts.
    Reliability standards also need innovation. Transmission 
rights-of-way are networked on many Federal public lands where 
vegetation management is necessary to maintain reliability. 
Tree contacts have caused many wildfires and blackouts in the 
United States and around the world. Pathways and benefits of 
integrated vegetation management can be balanced, however. An 
inclusive cost-benefit analysis of land factors and 
conservation can provide a better understanding of grid 
hardening.
    When transmission cannot be upgraded or built, non-wire 
solutions can assist grid reliability. Federal and state 
policies provide for consideration of non-transmission 
alternatives, like rooftop solar, storage, conservation, energy 
efficiency, and local and regional transmission planning 
processes.
    One tool to bridge inequities in planning is to incorporate 
inclusive ``Smart from the Start'', which enables utilities and 
developers to engage affected communities early in the process 
and discuss potential issues with possible construction sites 
and consider multiple alternatives. The existing NEPA process, 
using ``Smart from the Start'' planning, should be strengthened 
to be more inclusive and expand opportunities for public 
involvement in the Federal decision-making process.
    Inclusion means impacted communities are treated as equal 
partners and their interests are protected equally. Congress, 
agencies, and legislators can streamline and clarify the text 
of laws to make requirements more understandable, reduce 
paperwork burdens, and have multiple agencies that administer 
similar requirements jointly approve projects. Federal agencies 
need to increase public comment periods, conduct various types 
of public hearings for greater accessibility, and translate 
information about proposed projects.
    The initial West-Wide Energy Corridor's Section 368 
interagency plan did not incorporate ``Smart from the Start''. 
It was a first-of-its-kind report and a good start, but the 
Federal Government has to play an inclusive role, ensuring 
environmental justice principles are addressed to close the 
climate gaps when developing clean energy infrastructure 
projects on public lands.
    I offer these recommendations for key changes for the grid. 
Keep the just and equitable transition in mind for all types of 
planning. Create access to capacity data, planning tools, and 
new models, coordinate inclusive state, regional, and inter-
regional planning, improve Federal resource planning and 
coordination.
    In order to provide a more equitable and inclusive 
transmission system on public lands, Congress needs to: (1) 
direct the Bureau of Land Management, U.S. Forest Service, and 
U.S. Department of Energy to publish the final West-Wide Energy 
Corridor Plan and begin a new wind and solar programmatic 
inclusive study; (2) direct all Federal agencies to implement 
tribal and environmental justice policies and include them in 
holistic planning; and (3) direct all Federal land agencies to 
create criteria protecting tribal, low-income, frontline and 
disadvantaged communities from green gentrification.
    Thank you for the opportunity to testify. I look forward to 
your questions and working together to solve the inequities of 
the grid.

    [The prepared statement of Ms. Prochnik follows:]
 Prepared Statement of Julia Souder Prochnik, Founder, JASenergies LLC
    Thank you Chairman Lowenthal and members of the Committee. It is an 
honor to be here with all of you and my fellow panelists to testify 
before the Subcommittee on Energy and Mineral Resources on ``Energy 
Infrastructure and Environmental Justice: Lessons for a Sustainable 
Future.''
    I stand in solidarity with Black communities that have been deeply 
harmed by our society's injustices and inequalities. As a mother with 
young children, I am committed to a clean energy future and economy 
that is inclusive of all, for the benefit of all, and that contributes 
to a Just and Equitable society; it cannot come to pass without 
acknowledging and overcoming insidious discrimination.
    As many lifestyles become increasingly dependent on electricity, 
the United States needs to make major investments in a modernized grid 
to expand capacity and improve reliability as we plan for the future.
    For the first time in the United States in April 2019, renewable 
energy overtook coal, providing 23 percent of U.S. power generation, 
compared to coal's 20 percent share.\1\
---------------------------------------------------------------------------
    \1\ Oliver Milman, ``US generates more electricity from renewables 
than coal for first time ever,'' Guardian, October 2018, https://
www.theguardian.com/environment/2019/jun/26/energy-renewable-
electricity-coal-power, accessed October 2018.
---------------------------------------------------------------------------
    Between 2010 and the first quarter of 2019, U.S. power companies 
announced the retirement of more than 546 coal-fired power units, most 
of which are located in frontline or disadvantaged communities or on 
tribal lands, and totaling about 102 gigawatts (GW) of generating 
capacity. Plant owners intend to retire another 17 GW of coal-fired 
capacity by 2025, according to the U.S. Energy Information 
Administration. After a coal unit retires, the power plant site goes 
through a complex, multi-year process that includes decommissioning, 
remediation, and redevelopment including a repurposing of transmission 
lines. The U.S. electric transmission network consists of over 350,000 
circuit miles of lines \2\ connecting communities and provides a 
backbone of reliability and economic support.
---------------------------------------------------------------------------
    \2\ https://www.energy.gov/sites/prod/files/2018/03/f49/
2018%20Transmission%20Data%20Review %20FINAL.pdf.
---------------------------------------------------------------------------
    As coal plants are retired, capacity opens up on transmission 
lines. Renewable energy can step in and provide reliable, inexpensive 
and clean power. Solar and wind do not fit on the footprint of every 
coal plant site. Economics and public policies are pushing faster 
closure of coal plants and accompanied transitioning of local 
communities and infrastructure. The Centralia transition agreement is 
an example of a well-funded, long-term transition plan. Unlike many 
coal plant closures today, it was forged not because the company was 
going out of business but to address climate change.\3\ There are only 
20 coal plants in the continental West with owners who haven't 
committed to fully retiring them by specific dates or given the local 
communities a transition plan.\4\
---------------------------------------------------------------------------
    \3\ https://www.pewtrusts.org/en/research-and-analysis/blogs/
stateline/2020/03/04/as-us-coal-plants-shutter-one-town-tests-an-off-
ramp.
    \4\ https://www.latimes.com/environment/story/2020-02-04/coal-
power-plants-western-us.
---------------------------------------------------------------------------
    Transmission planning activities are undertaken to enable future 
reliable and efficient utilization of transmission facilities by 
addressing many factors but historically have not often addressed 
social or climate justice concerns. Transmission constraints and 
economic congestion (e.g. when it is too costly to move resources or no 
resources are available) are closely related phenomena,\5\ but are 
presented separately in reporting and are not shared with other 
agencies as openly as possible. Given the diversity of the transmission 
system itself--in ownership, operation, planning, and physical 
characteristics--presenting the data in a unified framework is 
challenging, but achievable.
---------------------------------------------------------------------------
    \5\ https://www.energy.gov/sites/prod/files/2018/03/f49/
2018%20Transmission%20Data%20Review %20FINAL.pdf.
---------------------------------------------------------------------------
    I will cover the need to ensure coordinated planning in three 
themes: inequities of the grid, climate change and the grid, and 
inclusive planning for the grid. The electric grid is the economic 
backbone of our country and must now transition toward increased 
inclusivity and equality.
                         inequity and the grid
    Clean energy will help us recover from the current COVID-19 
recession, but we must act and think differently to ensure diverse 
stakeholders including disadvantaged and front-line communities, Black 
and Brown organizations are at the table and able to participate in the 
changes.
    Over the past few years I have worked with communities, 
policymakers, advocates, unions and industry to help transition fossil 
fuel assets and infrastructure embedded in communities across the 
country. Just and Equitable Transition \6\ must benefit the local 
community and must come with financing, retraining, fair wage jobs and 
lost income protection. These efforts must prioritize the areas that 
are most vulnerable to climate change, including low-income 
neighborhoods and communities of color. Due to historic discrimination 
and residential segregation, these are often located near fossil fuel 
plants and mines, in flood-prone areas, or are exposed to 
disproportionately high heat, pollution, and other environmental 
risks.\7\
---------------------------------------------------------------------------
    \6\ https://westerngrid.net/wcea/jet/.
    \7\ https://www.americanprogress.org/issues/green/reports/2019/08/
01/473067/a-perfect-storm-2/.
---------------------------------------------------------------------------
    The Environmental Justice community strives for fairness and 
climate justice where aspects of mitigation and adaptation are uneven. 
There is a climate gap, which is an issue of human rights, public 
health, and equality and demonstrates how climate change does not 
affect everyone equally, and it is people of color and the poor who 
will be hurt the most.\8\
---------------------------------------------------------------------------
    \8\ https://dornsife.usc.edu/assets/sites/242/docs/
ClimateGapExecSumm_10ah_small.pdf.
---------------------------------------------------------------------------
    Transmission and distribution planning must be better coordinated. 
Confusing jurisdictions, lack of transparency, misaligned agency 
missions, lack of funding to bring diverse meaningful stakeholders into 
the complex process are all hurdles. But matching supply and demand in 
a more unified fashion will help the communities with costs, the 
industry with better information and policymakers with clear drivers to 
set goals.
    To attain these benefits, planning criteria and methodologies need 
to be revised to include climate justice and resilience. The design of 
resilient power systems starts with the overall planning of the entire 
system. Until recently, there had been little work on including climate 
considerations in planning.\9\
---------------------------------------------------------------------------
    \9\ https://openknowledge.worldbank.org/bitstream/handle/10986/
31910/Stronger-Power-Improving-Power-Sector-Resilience-to-Natural-
Hazards.pdf?sequence=1&isAllowed=y.
---------------------------------------------------------------------------
Tribal Energy and Infrastructure
    The President of the Navajo Nation delivered a heartfelt wake-up to 
many white people of the many hardships the Nation has faced and the 
strength and resiliency in the Navajo People. President Nez said in his 
testimony to Congress, ``I implore you to help address the systemic 
changes that need to occur for the improvement and advancement of 
Indian Country.'' He also said ``Today, I am asking that our 
environment and natural resources be protected, and our needs be 
promoted. With the protection of our resource and our participation in 
the 21st century, we will be able to live in a more harmonious state in 
our permanent homeland for generations to come.''
    Renewable energy policies must recognize--and attempt to correct--
the history of fossil fuel oppression and displacement of Indigenous 
people. The Federal Government has directive to advance Tribal 
Sovereignty and Rights, and 100 percent regenerative energy policies 
should include the leadership and consultation of Indigenous 
communities, particularly around energy sovereignty.
    Federal agencies should collaborate on coordinated processes with 
Tribes to be put in place to ensure advocates and policymakers 
intentionally consult with Indigenous communities on land, water, and 
air rights related to renewable energy.

[GRAPHIC] [TIFF OMITTED] T1129.001

    .epsWhen developers are working with tribes and Federal agencies 
there must be attention paid to the unique characteristics of rural and 
Indigenous communities, such as siting of renewables on sensitive 
lands, ``off grid'' solar options, and ``green businesses''.\10\
---------------------------------------------------------------------------
    \10\ https://www.100percentnetwork.org/uploads/cms/documents/100-
network_comprehensive-building-blocks-for-a-just-regenerative-100-
policy-2020.pdf.
---------------------------------------------------------------------------
    As outlined in the 100-network building blocks report,\11\ ``when 
planning transmission and generation together it is recommended to 
include renewable energy projects both ``located in'' and 
``benefiting'' EJ communities (while recognizing that it is not always 
feasible to site all renewable energy within target communities) 
because it rectifies disproportionality of dirty energy impacts and 
structural inequities.'' The public health and economic goals of 
achieving 100 percent regenerative energy will only be achieved if 
renewables are located in and benefit BIPOC \12\ (black, Indigenous and 
people of color) and frontline communities.\13\
---------------------------------------------------------------------------
    \11\ Ibid.
    \12\ https://www.nytimes.com/article/what-is-bipoc.html.
    \13\ https://www.100-network_comprehensive-building-blocks-for-a-
just-regenerative-100-policy-2020.pdf.
---------------------------------------------------------------------------
                      climate change and the grid
    As coal plant closures create changes for the electric system, the 
National Oceanic and Atmospheric Administration (NOAA) notes that 
extreme weather caused by climate change is growing and transmission 
lines are at risk across the country as storms grow more severe.

    Many leaders have referred to the electric grid in the U.S. as the 
largest single machine in the entire world, and it is an incredibly 
complicated thing to manage and balance.\14\ The grid on the right 
shows areas in the U.S. affected by climate disasters, which always 
affect some part of the grid (map on the left).\15\
---------------------------------------------------------------------------
    \14\ https://www.latimes.com/environment/story/2020-02-04/coal-
power-plants-western-us.
    \15\ https://www.anl.gov/.

    [GRAPHIC] [TIFF OMITTED] T1129.002
    

    .epsIn broader context, the total cost of U.S. billion-dollar 
disasters over the last 5 years (2015-2019) exceeds $525 billion, with 
a 5-year annual cost average of $106.3 billion, both of which are 
records. The U.S. billion-dollar disaster damage costs over the last 
decade (2010-2019) were also historically large, exceeding $800 billion 
from 119 separate billion-dollar events. Moreover, the losses over the 
most recent 15 years (2005-2019) are $1.16 trillion in damage from 156 
separate billion-dollar disaster events.\16\
---------------------------------------------------------------------------
    \16\ https://www.climate.gov/news-features/blogs/beyond-data/2018s-
billion-dollar-disasters-context.
---------------------------------------------------------------------------
    Significant portions of the nation's energy production and delivery 
infrastructure are in low lying coastal areas and low income 
disadvantaged and frontline communities; these facilities include oil 
and natural gas production and delivery facilities, refineries, power 
plants, and transmission lines. The traditional approach to 
infrastructure design may no longer be adequate. It is important to 
capture key features of a changing grid and the additional benefits to 
approaching adaptation in a more proactive way in order to adequately 
estimate future climate change impacts to all communities. Increasing 
transmission capacity within and between regions is critical to 
addressing extreme weather events, changes in peak loads, water and 
weather constraints on energy production, and sea level rise.\17\
---------------------------------------------------------------------------
    \17\ https://openknowledge.worldbank.org/bitstream/handle/10986/
31910/Stronger-Power-Improving-Power-Sector-Resilience-to-Natural-
Hazards.pdf?sequence=1&isAllowed=y. Nicolas, C., J. Rentschler, A. 
Potter van Loon, et al. 2019. ``Stronger Power: Improving Power Sector 
Resilience to Natural Hazards.'' Sector note for LIFELINES: The 
Resilient Infrastructure Opportunity, World Bank, Washington, DC.
---------------------------------------------------------------------------
    Anticipated impacts of climate change can be addressed with 
increases in generating, transmission and distribution capacity, as 
well as through improvements to equipment design.\18\ My colleague Rob 
Gramlich mentioned in a 2019 congressional testimony that ``new 
technologies are commercially available and are being deployed in other 
countries to reduce transmission congestion and improve reliability, 
such as Dynamic Line Ratings, power flow control, and topology 
optimization. Congress can direct the Federal Energy Regulatory 
Commission (FERC) to ensure that transmission owners have an incentive 
to deploy these technologies to a wide range of customers including low 
income and disadvantaged communities.'' \19\
---------------------------------------------------------------------------
    \18\ https://www.osti.gov/biblio/1026811.
    \19\ https://gridprogress.files.wordpress.com/2019/06/testimony-to-
roundtable-on-electricity-transmission-infrastructure-.pdf.
---------------------------------------------------------------------------
    Transmission planning at Federal, state and local levels must be 
inclusive of resilience and climate justice concerns as well as 
adaptive and mitigation measures.
Renewables and Public Opinion
    As a recent Yale study points out ``Voters support establishing a 
national renewable portfolio standard (RPS) requiring 100 percent of 
electricity to be generated from renewable sources by 2050 (71 percent) 
and say enacting a national 100 percent RPS would have a positive 
impact on the environment in the U.S. (77 percent) and the U.S. economy 
(61 percent), bring down electricity costs (61 percent), and benefit 
rural and farming communities (56 percent).'' \20\ They also say 
infrastructure investments should repair old roads and bridges (92 
percent), repair and modernize America's public school buildings (84 
percent), expand the use of renewables (81 percent), build new power 
lines for transmission of renewable energy (81 percent), expand rural 
broadband (80 percent), build new roads and highways (79 percent), and 
expand public transportation (76 percent). And 76 percent say it's 
important to invest in building infrastructure to withstand the effects 
of climate change.\21\
---------------------------------------------------------------------------
    \20\ Climate Nexus, Yale Program on Climate Change Communication, 
George Mason Center for Climate Change Communication, 09/13/19.
    \21\ Ibid.

    U.S. renewable energy development has skyrocketed in recent years. 
In 2020, the Energy Information Administration projected that U.S. 
solar generating capacity in 2019 and 2020 would increase by 65 percent 
from 2018 capacity. And in 2020, approximately 44 percent of new U.S. 
electric generating capacity installed will be wind generation, and 32 
percent will be solar photovoltaic. Pluralities of voters think a 100 
percent RPS policy would help bring down the unemployment rate (46 
percent), improve wages for American workers (46 percent), and benefit 
communities of color (42 percent).\22\
---------------------------------------------------------------------------
    \22\ Ibid.

    Public policies pushing the need for 100 percent clean energy and 
carbon reduction promote the economic stimulus for market and 
regulatory certainty; however, community transition is not always at 
the top of the list and must be part of the plan. As the electric 
generation changes on the grid, the transmission changes too; 
especially the capacity on the lines and the upgrades needed.
Cities with 100 Percent Clean Electricity Commitments \23\
---------------------------------------------------------------------------
    \23\ https://www.cfra.org/sites/www.cfra.org/files/publications/
CapacityForChange.pdf.
[GRAPHIC] [TIFF OMITTED] T1129.003


    .epsClean power commitments have increased at the county and city 
level, with a total of 11 counties and 104 cities pledging to 100 
percent clean energy goals at the end of 2018. Approximately 50 million 
people live in places with these goals, making up about 15 percent of 
the Nation's population.\24\
---------------------------------------------------------------------------
    \24\ Ibid.
---------------------------------------------------------------------------
    The next step is to ensure the commitments also include 
environmental justice policies and climate justice goals. There is no 
``one size fits all'' solution and this should not supersede the 
interests and self-determination of local frontline communities. A 
``community benefits'' framework is recommended that includes 
ecological, health, and economic benefits.\25\ Public land issues and 
eminent domain need to also be considered in the policy.
---------------------------------------------------------------------------
    \25\ https://nationaleconomictransition.org/.
---------------------------------------------------------------------------
    RPS policies should clearly outline and make transparent purchase 
agreements of renewable energy and ensuring that policies related to 
the grid are linked to disaster preparedness and clear ways to address 
the climate gap.
    State and local policies have pushed the desire to meet climate 
goals and the Federal Government could assist by enacting a Federal 
renewable portfolio standard (RPS). State integrated resource plan 
planning process, which could facilitate investment-level analysis of 
these public policy-enabling projects \26\ as well as a new FERC Order 
on mandated coordinated planning.
---------------------------------------------------------------------------
    \26\ https://static1.squarespace.com/static/
59b97b188fd4d2645224448b/t/59f40357652dea26877 e092e/1509163867513/
RETI+2+Western+Outreach+Project+Report.pdf.
---------------------------------------------------------------------------
                    inclusive planning for the grid
Incentives to Drive Inclusive, Data-Driven Planning
    The North American Electric Reliability Corporation (NERC) creates 
standards for the electric grid as well as enforces compliance for the 
bulk power system. NERC Standards coordinate resiliency and 
reliability, but the needs must also account for and include frontline, 
disadvantaged and tribal communities.
    Transmission standards could also be improved to standardize 
equipment for plug and play interoperability, as well as 
conventionalize geographic information systems (GIS) to provide 
visualization of power outages to Federal and state agencies to better 
depict planning for climate change disasters.\27\
---------------------------------------------------------------------------
    \27\ US National Rural Electric Cooperative Association uses the 
Los Alamos tool online to see what upgrades it recommends for their 
systems.
---------------------------------------------------------------------------
    To better account for resilience considerations, utilities will 
also have to adopt a holistic approach. Currently, planning exercises 
are disconnected from each other and since the power system is a 
network, the resilience of the whole system must be considered as a 
unit. An integrated approach that simultaneously considers both the 
resilience of individual assets and that of the system as a whole would 
be highly desirable. Despite challenges, my recommendation is to adopt 
interdisciplinary models that can simulate the behavior of the power 
system and its reaction to a natural disaster.\28\
---------------------------------------------------------------------------
    \28\ https://openknowledge.worldbank.org/bitstream/handle/10986/
31910/Stronger-Power-Improving-Power-Sector-Resilience-to-Natural-
Hazards.pdf?sequence=1&isAllowed=y.
---------------------------------------------------------------------------
    Transmission infrastructure rights of ways weave across the country 
and over 17,000 miles on BLM land \29\ and over 6,000 on Forest Service 
public land.\30\ As climate change affects the landscape of Federal 
lands, it is the responsibility of the government to ensure effective 
management of our limited natural resources, protect wilderness and 
conservation sites, establish renewable energy sources and develop 
environmental regulation and public participation that includes climate 
justice.
---------------------------------------------------------------------------
    \29\ https://www.blm.gov/programs/lands-and-realty/rights-of-way/
electric-power-lines.
    \30\ https://www.govinfo.gov/content/pkg/CHRG-113hhrg87850/html/
CHRG-113hhrg87850.htm.
---------------------------------------------------------------------------
    As mentioned before, transmission right of ways are networked on 
many Federal public lands and vegetation management is necessary to 
maintain reliability. A critical reliability standard is vegetation 
management of rights-of-ways. Tree contacts have caused many blackouts 
in the U.S. and around the world. But there can be balance with certain 
pathways. Additional benefits of integrated vegetation management are 
the reduction of invasive species and the possibility of creating new 
pollinator or wildlife habitat, offering a considerable number of acres 
in the form of right-of-way corridors in new habitat across the U.S. 
These corridors can also serve an important role in providing 
transition landscape for several species, promoting biological 
diversity while reducing habitat fragmentation.\31\ Conducting an 
inclusive costs benefit analysis of various land use factors can 
provide a better understanding of hardening of grid.
---------------------------------------------------------------------------
    \31\ Benefits of Integrated Vegetation Management (IVM) on Rights-
of-Way.'' US Environmental Protection Agency, Pesticide Environmental 
Stewardship Program, Nov. 4, 2016. epa.gov/pesp/benefitsintegrated-
vegetation-management-ivm-rights-way. Accessed June 2019.
---------------------------------------------------------------------------
    Costs for transmission right-of-way leases can also change. 
Landowners who host wind turbines receive annual land lease payments, 
but payments for a transmission line right of way are typically one-
time sums that are much smaller in comparison. Utilities and developers 
can form new models providing benefits to communities near transmission 
projects.\32\
---------------------------------------------------------------------------
    \32\ Using underground lines can improve resilience of the grid, as 
they are shielded from the elements of nature. However, burying 
overhead wires costs $300,000--$1,250,000 per kilometer (compared to 
$80,000-$240,000 for above ground wires). The per-mile cost of HVDC 
projects ranges between $1.17 million and $8.62 million per mile, 
according to a review of recent proposals and relevant regulatory 
filings. Additionally, underground wires take longer to restore in the 
event of a fault, and repair costs are also higher. The advantages 
therefore need to be balanced carefully against the disadvantages of 
siting transmission above or below ground and usually in rights of ways 
with existing corridors.
---------------------------------------------------------------------------
    Asking the right questions is key and listening to the diverse 
answers is critical. Some groups would say in the California Central 
Valley, decarbonizing residential fuel combustion (such as wood-burning 
stoves and fireplaces) and diesel-powered transportation is more urgent 
than installing rooftop solar for improved air quality. The California 
Energy Commission (CEC) helped fund microgrids to strengthen the energy 
resilience of communities in the Central Valley and supporting energy 
infrastructure, especially in low-income areas affected by PG&E public 
safety power shutoffs.
    Electrical grid reliability and outages can have a significant 
impact on the health and safety of customers, especially in regions 
affected by extreme heat and in need of cooling and in low-income and 
disadvantaged communities. State policy makers are asking for 
additional data in utility integrated resource plans, but more has to 
be done to address the climate gap especially since high energy bills 
relative to income may drive low-income households to make do with 
insufficient heating or cooling, which can increase the incidence of 
asthma, especially in children.\33\
---------------------------------------------------------------------------
    \33\ Based on a 2016 study by Drehobl and Ross. https://
www.aceee.org/sites/default/files/publications/researchreports/
u1602.pdf.
---------------------------------------------------------------------------
    A robust and efficient transmission system will be essential to 
reap the benefits of renewable energy resources. Planners should aim 
not just for the immediate needs of the transmission grid but take a 
long-term view of the changing electric power sector. Utilities and 
transmission developers must work to change the process for designing 
and constructing grid projects, employing approaches and techniques 
that will lead to increased satisfaction for all stakeholders and 
improved impact mitigation that provide Just and Equitable outcomes for 
each community.
Enhance Data Access and Modeling
    The U.S. Department of Energy deployed hundreds of phasor 
measurement units to measure the electricity flow on the wires in real 
time. This data is immense, and many universities and labs have started 
to study the plethora of information.
    Transmission and distribution phasor measurement units (PMU) 
provide an unprecedented ability to compare time-stamped, synchronized 
measurements of voltage and current magnitudes and phase angles. This 
data, in conjunction with new and existing distribution-grid planning 
and operational tools, is expected to enable better model validation, 
event detection and location, and renewable resource and load 
characterization, among other applications. Adjunct Professor Alexandra 
von Meier is researching and using PMU data to define a nimble and 
resilient electricity infrastructure to support a carbon-neutral energy 
sector.\34\
---------------------------------------------------------------------------
    \34\ https://onlinelibrary.wiley.com/doi/abs/10.1002/
9781118755471.sgd087.
---------------------------------------------------------------------------
    Smart grids and advanced metering infrastructure both improve 
situational awareness and facilitate rapid restoration of service. PMUs 
have averted widespread blackouts even in normal operations. They 
rapidly assess and report the state of the transmission network, and, 
when employed in wide-area monitoring systems, automatically react to 
changes in the network. The information from PMUs and other intelligent 
electronic devices helps improve grid performance and resilience, and 
is vital to system operators, who are otherwise blind to rapid changes 
in the power system.\35\
---------------------------------------------------------------------------
    \35\ The GridWise Alliance 2013; White House 2013.
---------------------------------------------------------------------------
    Another type of automation, created at Texas A&M, relies on sensors 
at substations--facilities where high-voltage lines that travel long 
distances meet low-voltage lines that weave through neighborhoods. 
These sensors monitor how electricity is flowing through power lines 
connected to the substation. These electrical signals also contain 
clues about where problems are--sometimes down to the exact location on 
an individual power line.\36\
---------------------------------------------------------------------------
    \36\ https://www.sciencenews.org/article/u-s-power-grid-
desperately-needs-upgrades-handle-climate-change.
---------------------------------------------------------------------------
    One key challenge is data recording is rapidly outstripping the 
processing capabilities of standard planning and operational tools. 
Continuous innovation is a must as we work to improve situational 
awareness and gain a deeper understanding of the physics of the 
electric grid. The ability to launch new technologies and digitization, 
and capabilities in hybrid technologies and storage to counteract 
intermittency as well as new tower designs with AC/DC bi-poles is 
important in current research, development and deployment. Digital 
tools and skills will be key to competitiveness along the asset life 
cycle of clean energy tools and infrastructure, from site 
identification to project compilation.\37\ Making the data available to 
more diverse students can broaden insight into better grid planning.
---------------------------------------------------------------------------
    \37\ https://www.mckinsey.com/industries/electric-power-and-
natural-gas/our-insights/rethinking-the-renewable-strategy-for-an-age-
of-global-competition#.
---------------------------------------------------------------------------
Bilateral Contracts Obscurity
    There is an unfortunate lack of access to the actual numbers of 
megawatts moved around the grid through bilateral contracts. Gaining 
access to this data would provide numerous benefits to planning, 
operation and resilience measures for the grid.
    As the resource portfolio in the western interconnection evolves 
into the 2030s, the need for transmission becomes more obvious and 
resources will face transmission constraints. Increased transparency 
with bilateral contracts is needed to better understand resource 
adequacy on the system and adjust for flexibility. Having more access 
to information will decrease the pressure to lean on frontline and 
disadvantaged communities who are continually exploited by fossil 
fuels.
    The use of bilateral contracts and electric transfers via 
transmission lines are likely to increase in the coming years and such 
economic transfers are one of the most effective tools to for 
increasing system flexibility. Open and coordinated power markets help 
make these transactions more efficient in the short term.\38\ 
Currently, lack of grid flexibility is leading to more and more 
curtailment, a reduction in generation output, which often impacts 
renewable energy first due to the variability of these resources across 
a region and constraints such as limited transmission capacity. 
Decreasing curtailment would infuse the grid and electric markets with 
more low-cost renewable energy while improving revenue for generators--
a key concern in the initial planning of projects.\39\
---------------------------------------------------------------------------
    \38\ https://westernenergyboard.org/wp-content/uploads/2019/12/12-
10-19-ES-WIEB-Western-Flexibility-Assessment-Final-Report.pdf.
    \39\ Denholm, Paul, et al. ``On the Path to SunShot: Emerging 
Issues and Challenges in Integrating High Levels of Solar into the 
Electrical Generation and Transmission System.'' National Renewable 
Energy Laboratory, US Department of Energy, May 2016, nrel.gov/docs/
fy16osti/65800.pdf. Accessed June 2019.
---------------------------------------------------------------------------
    FERC, Regional Transmission Organizations and states should provide 
a more supportive policy environment for the types of bilateral 
contracts that are most beneficial to developing healthy, competitive 
electricity markets.\40\
---------------------------------------------------------------------------
    \40\ http://citeseerx.ist.psu.edu/viewdoc/
download?doi=10.1.1.179.1344&rep=rep1&type=pdf.
---------------------------------------------------------------------------
Non-Wires Alternatives
    When transmission cannot be upgraded or built, then non-wires 
solutions can assist grid reliability. Outlined in Federal and state 
policies non-transmission alternatives (e.g., demand-side management, 
distributed generation, conservation, and energy efficiency) are also 
considered during the local and regional transmission planning process; 
however, despite these efforts, new transmission will enable renewable 
energy development. Education and outreach are part of early adaption 
of non-wires solutions. For example, increasing access to rooftop solar 
for low-income customers can reduce energy burden, if energy use 
coincides with periods of sunshine or rooftop solar is combined with 
energy storage that can be discharged after the sun sets. Sometimes a 
non-wire alternative like storage can assist with keeping clean power 
on the system longer. Especially if the storage can provide short and/
or long duration storage. This energy can then be used on the 
distribution or transmission system.
    Transmission and distribution planning should account for the 
growing penetration of behind-the-meter resources and energy efficient 
appliances and buildings,\41\ and the willingness of customers to 
reduce electricity consumption during peak electricity demand. There 
are many black and brown communities who pay higher rates for energy 
than wealthier neighborhoods and cannot afford EV or solar.\42\
---------------------------------------------------------------------------
    \41\ https://www.nrdc.org/experts/lara-ettenson/everyone-can-
benefit-electric-homes-heres-how-0.
    \42\ https://www.americanprogress.org/issues/race/reports/2018/02/
21/447051/systematic-inequality/.
---------------------------------------------------------------------------
Inclusive ``Smart from the Start'' Siting
    There is a significant value in incorporating environmental 
justice, cultural and environmental awareness information upfront in 
the transmission planning process, which provides a range of 
optionality to reduce the potential for conflict during siting, 
permitting, and construction.

    My colleague Jennie Chen outlined that the National Environmental 
Protect Act (NEPA) and Federal permitting requirements are important 
components of ``smart from the start'' planning in her 2019 
congressional testimony.\43\ Smart from the Start enables utilities and 
developers to anticipate potential issues with prospective construction 
sites and consider a multitude of alternatives while engaging affected 
communities early in the process. She shared the following principles 
outlined by Carl Zichella and Johnathan Hladik: \44\
---------------------------------------------------------------------------
    \43\ https://energycommerce.house.gov/sites/
democrats.energycommerce.house.gov/files/documents/Testimony-Chen-EP-
Hrg-on-State-of-the-Nation%E2%80%99s-Energy-Infrastructure-2018-02-
27.pdf.
    \44\ Carl Zichella and Johnathan Hladik, Siting: Finding a Home for 
Renewable Energy and Transmission. http://americaspowerplan.com/
siting/.

    <bullet> Consult stakeholders early and involve them in planning, 
---------------------------------------------------------------------------
            zoning and siting.

    <bullet> Close collaboration with tribal, state, and local 
            governments is critical, and robust public engagement is 
            essential for the credibility of the siting, permitting, 
            and review process.

    <bullet> Use geospatial information to categorize the risk of 
            resource conflicts.

    <bullet> Avoid land and wildlife conservation and cultural resource 
            conflicts and prioritize development in previously 
            disturbed areas (use WECC environmental data viewer 
            tool).\45\
---------------------------------------------------------------------------
    \45\ https://www.arcgis.com/apps/webappviewer/
index.html?id=658e57d6a5d1450fac532c0110172 d62.

    <bullet> Incentivize resource zone development with priority 
            approvals and access to transmission. Consider renewable 
            energy zones or development sites that optimize the use of 
---------------------------------------------------------------------------
            the grid. Maximize the use of existing infrastructure.

    <bullet> Where zoning is not feasible (as in much of the Eastern 
            Interconnection), use siting criteria based on these 
            principles.
    I would add:

    <bullet> Agencies and legislatures can streamline and clarify the 
            text of laws to make requirements more understandable, 
            reduce paperwork burdens by providing for e-filing and 
            approval, and have multiple agencies that administer 
            similar requirements jointly approve projects.\46\
---------------------------------------------------------------------------
    \46\ For example, renewable energy developers building generation 
or transmission in wet areas typically must obtain state approval for 
dredging and filling in wetlands in addition to a Federal dredge and 
fill permit issued by the Army Corps of Engineers. When the state and 
Corps join forces and allow for one submission of project data to the 
state and the Corps and jointly process permit applications, this can 
save time and resources (US Army Corps of Engineers n.d.). Oregon 
follows a similar joint permitting process for wind energy under a 
Memorandum of Understanding between the Oregon Energy Facility Siting 
Council and the Bureau of Land Management[5] (US Department of the 
Interior, Oregon State Office 2009). As well as Governor Andrew Cuomo 
proposed all of these steps in the Accelerated Renewable Energy Growth 
and Community Benefit Act in February 2020, arguing that this expedited 
review will be necessary to meet New York's aggressive climate goals 
(Governor Andrew Cuomo 2020). Specifically, he proposed to 
``consolidate the environmental review and permitting of major 
renewable energy facilities to provide a single forum'' for reviewing 
large environmental projects.

---------------------------------------------------------------------------
    <bullet> Address and include Climate Gap criteria.

    As outlined in the Statement of Principles for Environmental 
Justice \47\ mandates the right to ethical, balanced and responsible 
uses of land and renewable resources in the interest of a sustainable 
planet for humans and other living things, and to prevent 
disproportionate shares of polluting projects from being sited in 
vulnerable communities. The exiting NEPA process should be strengthened 
to expand opportunities for public involvement in the Federal decision-
making process.
---------------------------------------------------------------------------
    \47\ http://www.energyjustice.net/files/ej/energy-ej.pdf.

  1.  In any re-evaluation effort agencies need to build an inclusive 
            process at every level of decision-making including 
            assessment, planning, implementation, enforcement, and 
---------------------------------------------------------------------------
            evaluation that is ongoing, inclusive and respectful.

  2.  Inclusion means impacted communities (EJ, Tribal, and frontline) 
            are treated as equal partners and their interests are 
            protected equally (if not more than) other industry 
            interests.

  3.  All project decisions and evaluations need to fully reflect on-
            the-ground realities and cumulative impacts including but 
            not limited to health and environmental outcomes, pollution 
            levels, and impacts to sacred/ cultural resources.

    Policymakers must craft effective solutions that cut across diverse 
policy areas and address region-specific climate change impacts.
    Over the last 20 years the grid has changed dramatically as clean 
energy has been integrated. We have amazing grid operators who help 
keep the lights on and balance the system intricacies, but we must 
transition to a new system. As we plan for a better clean energy 
future, we will not make the mistakes of the past--disenfranchising 
brown and black people and their communities.
Public Lands and Coordinated Policymakers
    The International Panel on Climate Change report \48\ emphasizes 
how important it is to balance multiple public goods in land use 
planning--food security, environmentally responsible renewable energy 
development to fight climate change, and conservation of large, intact 
landscapes for multiple benefits, including their ability to sequester 
carbon.
---------------------------------------------------------------------------
    \48\ https://www.ipcc.ch/.
---------------------------------------------------------------------------
    The Bureau of Land Management, steward of millions of acres of 
public lands in the West is charged with implementing innovative 
programs including the West Wide Energy Corridors, the Western Solar 
Plan (as well as the Wind and Solar Land Leases) and the Desert 
Renewable Energy Conservation Plan.
    All energy sources have some impact on the environment--even 
renewables. Fortunately, as compared to fossil-fueled electricity, 
renewable energy has the potential to produce large amounts of clean 
electricity and reduce impacts on land, water, wildlife, human health 
and climate.\49\ Incorporating nature at the outset of energy planning 
not only results in lower impacts to wildlife and habitat but improves 
energy planning so that new clean energy investments are directed to 
the places where they can be developed with more certainty. When clean 
energy can be sourced across a larger area, there are more cost-
effective opportunities to create balanced solutions for clean energy 
and land conservation.\50\
---------------------------------------------------------------------------
    \49\ https://www.scienceforconservation.org/assets/downloads/
Technical_Report_Power_of_Place .pdf.
    \50\ https://www.nature.org/en-us/about-us/where-we-work/united-
states/california/stories-in-california/clean-energy/.
---------------------------------------------------------------------------
    Transmission is a long-lived investment, and it would be prudent to 
account for public policies that drive changes in the energy resources 
we use to power the grid. Planning should account for modern 
transmission technologies and other ways to increase the capacity on 
the system, reduce energy loss, and maximize the use of existing lines 
and rights of way. The Federal agencies need to continue to work 
together to ensure this criteria is incorporated into updated land use 
and resources management plans to ensure the inclusive public is 
receiving the greatest benefit.
    A coordinated and guided development approach to development on 
public lands should identify areas with low natural resource values, 
high renewables potential, and needed infrastructure like transmission 
are suitable for development. By guiding projects to zones, the 
agencies can ensure that transmission and renewable energy projects are 
built faster, with community involvement, less expensive and better for 
the environment, developers and customers.
    West-wide energy corridors are considered preferred locations for 
energy transport projects on lands managed by the BLM, U.S. Forest 
Service. When I worked on the Section 368(a) of the Energy Policy Act 
of 2005 (EPAct), interagency plan the National Park Service, the U.S. 
Fish and Wildlife Service, the U.S. Department of Defense, and U.S. 
Department of Agriculture (U.S. Forest Service) and the U.S. Office of 
Minerals were also working together to adjust land use and resource 
plans. It was a first of its kind report, and it was not perfect but a 
good start. Federal agencies need to increase public comment periods, 
conduct various types of public hearings for greater accessibility, and 
translate information about proposed projects.
    The lessons learned focused on how to deal with conflicting 
interests, control, access and protection as well as a lack of 
knowledge in certain areas. The agencies were able to get past the 
infighting of mission creep and cross purpose goals to meet the 
underlined principle--``what is best for the American people.'' 
However, at the time we naively did not consider the diversity of 
communities and resources available. Our knowledge was limited, and we 
didn't seek more and that is a great fault, and now the need for the 
process to change for the better is beginning.
                        key changes for the grid
    All planning must be undertaken with Just and Equitable transition 
in mind and these key principles:

    <bullet> Create access to capacity data, planning tools, and new 
            models

    <bullet> Coordinate state, regional and inter-regional transmission 
            planning

    <bullet> Improve Federal resource planning and coordination

    Many of these challenges will require the government, industry, 
policymakers, regulators, developers, advocates and stakeholders to 
rethink traditional approaches to projects, whether that be the design 
phase of a project, conducting community outreach, or the actual 
construction of a line. But, implementing changes in the development 
process presents opportunities for transmission lines to be routed and 
built in ways that better consider the needs and desires of local 
stakeholders.\51\
---------------------------------------------------------------------------
    \51\ https://www.cfra.org/sites/www.cfra.org/files/publications/
CapacityForChange.pdf.

    Policymakers can support economic security, protect communities 
from the brunt of climate change impacts, and improve the availability, 
quality, and accessibility of affordable clean energy in frontline 
---------------------------------------------------------------------------
communities.

    Congress needs to:

  1.  Direct BLM/USFS/USDOE to publish final West-Wide Energy Corridor 
            Study and begin a new wind and solar study.

  2.  Direct all Federal agencies to implement EJ policies and include 
            in holistic transmission and distribution planning.

  3.  Direct all Federal land agencies to create criteria protecting 
            tribal, low income, frontline and disadvantaged communities 
            from green gentrification.

    ``Climate change does not affect everyone equally in the United 
States,'' according to Rachel Morello-Frosch, lead author of The 
Climate Gap, ``People of color and the poor will be hurt the most--
unless elected officials and other policymakers intervene.'' \52\ 
Climate change mitigation efforts must consciously protect low-income 
communities from ``green gentrification.''
---------------------------------------------------------------------------
    \52\ https://dornsife.usc.edu/pere/climategap/.

    Thank you for the opportunity to testify, and I look forward to 
your questions and working together to solve the inequities of the 
---------------------------------------------------------------------------
grid.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Ms. Prochnik.
    The Chair now recognizes Ms. Obed for testimony. Welcome.

   STATEMENT OF SARAH OBED, SENIOR VICE PRESIDENT, EXTERNAL 
           AFFAIRS, DOYON LIMITED, FAIRBANKS, ALASKA

    Ms. Obed. Thank you, Chairman Lowenthal, Ranking Member 
Gosar, and members of the Subcommittee. Thank you for the 
opportunity to testify on considerations regarding 
environmental justice in the context of American energy 
infrastructure needs.
    My name is Sarah Obed. I am an Athabascan shareholder from 
the Native Village of Minto, approximately 130 miles northwest 
of Fairbanks, right in the heart of Alaska. I serve as the 
Senior VP of External Affairs for Doyon Limited.
    Doyon is 1 of 13 Alaska Native regional corporations 
established under the Alaska Native Claims Settlement Act of 
1971. We are based in Fairbanks, and we have more than 20,000 
Alaska Native shareholders. We are the largest private 
landowner in Alaska, with a land entitlement of more than 12.5 
million acres.
    Our mission is to promote the economic and social well-
being of our shareholders and our future shareholders, to 
strengthen our Native way of life, and to protect and enhance 
our land and resources.
    We operate a diverse family of companies in industries, 
including oil and gas service contracting, natural resource 
development, government contracting and tourism, and utilities, 
among others. We are also pursuing several mineral, oil, and 
gas exploration projects in Interior Alaska. If successful, 
these projects will provide substantial benefits to Doyon and 
our shareholders.
    Responsible development of our energy and other natural 
resources is of significant importance to Doyon and to our 
shareholders. Our success as an Alaska Native corporation 
demands that our investments in energy infrastructure and 
development be done with consideration for the needs of our 
people and the health of the land and water that has always 
supported our communities. The revenues, jobs, and economic 
activity from oil exploration and development are important to 
the present and future well-being of all Alaskans, including 
Native people, our village, and regional corporations. Services 
and contracts associated with oil exploration and development 
are a key source for jobs and revenues for Doyon and many 
others throughout the state.
    At the same time, our lands and the resources thereon are 
critically important for customary and traditional subsistence 
uses of fish and wildlife. Our mission requires that we honor 
all of these interests, pursuing responsible economic 
development, while at the same time protecting and enhancing 
our socio-economic welfare, our culture, and our lands and 
resources.
    When Congress in the late 1960s debated the merits of 
establishing corporations as the mechanism for settling 
aboriginal land claims in Alaska, Members spoke to the merits 
of empowering Alaska's Native people to own our own natural 
resources in Alaska. Our land was selected by us for our use. 
Many of our lands which were selected near villages are 
intended for traditional activities, such as hunting and 
fishing. Many of our lands were selected in regions that have 
oil and gas potential or have mineral potential.
    For Doyon, environmental justice includes a focus on 
celebrating our way of life, a way of life that has existed 
since time immemorial. It is also an opportunity for Doyon to 
ensure socio-economic benefits for our people. This includes 
cash benefits, jobs, wages, and educational scholarships.
    The Alaska oil and gas industry is important to Doyon. We 
have built a healthy and sustainable business that employs 
hundreds of our Alaska Native shareholders and provides career 
opportunities.
    The economic impact of Doyon, together with other local 
Alaska Native organizations, including corporations and tribes, 
hit $1.05 billion in 2016. Last year, we employed 968 
employees, of which 316 were Doyon shareholders. We also 
contributed last year $2.4 million to tribes, schools, non-
profits, and our affiliated education foundation, the Doyon 
Foundation, including $200,000, which is an annual contribution 
meant to rejuvenate and support indigenous languages of our 
region. We also distributed $26 million in cash to our 
shareholders through the Doyon Settlement Trust. In addition to 
ensuring these benefits are shared with our people, we also 
recognize that we are engaged in project development.
    We do recognize the critical importance of meaningful 
outreach and engagement with the Alaskan Native people, as our 
people have social, economic, and corporate interests in 
critical development.
    Thank you for the opportunity to testify. I will answer any 
questions for members of the Subcommittee.

    [The prepared statement of Ms. Obed follows:]
            Prepared Statement of Sarah Obed, Doyon Limited
    Chairman Lowenthal, Ranking Member Gosar, and members of the 
Subcommittee, thank you for the opportunity to testify on 
considerations regarding environmental justice in the context of 
American energy infrastructure needs.
    My name is Sarah Obed. I am an Athabascan shareholder from the 
Native Village of Minto--approximately 130 miles northwest of 
Fairbanks, in the heart of Alaska. I serve as Senior Vice President, 
External Affairs of Doyon, Limited.
    Doyon, Limited (Doyon) is one of the 13 Alaska Native regional 
corporations established by Congress under the negotiated terms of the 
Alaska Native Claims Settlement Act (ANCSA) of 1971. Headquartered in 
Fairbanks, Doyon has more than 20,000 Alaska Native shareholders. Doyon 
is the largest private landowner in Alaska, with a land entitlement 
under ANCSA of more than 12.5 million acres. Doyon's lands extend from 
the Brooks Range in the north to the Alaska Range in the south. The 
Alaska-Canada border forms the eastern border and the western portion 
almost reaches the Bering Sea.
    Doyon's mission is to promote the economic and social well-being of 
our shareholders and future shareholders, to strengthen our Native way 
of life, and to protect and enhance our land and resources. Our land 
and our resources serve and support our shareholders, whether as land 
to support subsistence hunting and fishing or as land to support the 
development of resources that serve the interests of Americans 
throughout our Nation.
    Doyon, Limited operates a diverse family of companies in industries 
including oil and gas service contracting, natural resource 
development, government contracting and tourism, among others. In 
furtherance of our mission, Doyon is also pursuing several mineral and 
oil and gas exploration projects in Interior Alaska. If successful, 
these projects will provide substantial benefits to Doyon and our 
shareholders, and, by providing new employment opportunities and 
helping alleviate the energy crisis in Interior Alaska, to all 
Alaskans.
    Congress's establishment of Alaska Native corporations in Alaska 
was unique in the history of Indian law, aboriginal rights, and self-
determination. When Congress in the late 1960s debated the merits of 
establishing corporations as the mechanism for settling aboriginal 
lands claims in Alaska, Members spoke to the merits of empowering 
Alaska's Native people to own our own natural resources in Alaska. The 
objective was to settle land disputes, allow access to Natural 
Resources for development, and for Alaska Natives to retain large 
amounts of aboriginal land. These lands were conveyed to Alaska Native 
corporations in settlement of aboriginal land claims, which would be 
used to serve our villages--in part, as land on which our people would 
continue to engage in subsistence hunting and fishing and, in part, as 
land from which we could extract or otherwise develop natural resources 
to serve the economic interests of our Native communities. For Doyon, 
environmental justice includes a focus on celebrating our way of life, 
a way of life that has existed since time immemorial. It also means the 
opportunity for Doyon to ensure socio-cultural and economic benefits 
for our people, for our shareholders, and for our future generations. 
This includes cash benefits, jobs, wages, and educational scholarship.
    Energy and natural resource development in Alaska plays a critical 
role in providing economic resources to individuals, communities, and 
governments to help meet these needs. Even today, some rural Alaska 
Native villages continue to lack access to basic services like running 
water, low cost energy, and other public services that most Americans 
are able to take for granted. Funding to address infrastructure needs 
like these is hard to come by, and contributes to significant public 
health risks for these communities. Despite the State's significant 
natural resource reserves, energy costs particularly in rural Alaska 
are very high, and our communities have some of the highest costs of 
living anywhere in the country. Alaska is blessed with significant 
energy and other natural resources, the development of which provides 
critical economic resources to help meet these needs, including for 
underserved, rural Alaska Native communities.
    Such activities, however, are very often targets of nationwide 
campaigns by environmental groups that choose to ignore these important 
benefits. According to the Environmental Protection Agency, 
``Environmental justice is the fair treatment and meaningful 
involvement of all people regardless of race, color, national origin, 
or income, with respect to the development, implementation, and 
enforcement of environmental laws, regulations, and policies.'' When it 
comes to energy and other resource development and infrastructure 
projects in Alaska, this demands that the voices of those who might 
support these activities, and who directly or indirectly benefit from 
them, must also be heard and respected--not only those who might choose 
to oppose them.
    Responsible development of our energy and other natural resources 
is of significant importance to Doyon and our shareholders. Our success 
as an Alaska Native Corporation demands that our investments in energy 
infrastructure and development be done with consideration for the needs 
of our people and the health of the land and water that has always 
supported our communities. The revenues, jobs and economic activity 
from oil exploration and development are critically important to the 
present and future well-being of all Alaskans, including Native people 
and our village and regional corporations. Services and contracts 
associated with oil exploration and development are a key source of 
jobs and revenue for Doyon and many others throughout the State. At the 
same time, our lands and the resources thereon are critically important 
for customary and traditional subsistence uses of fish and wildlife. 
Doyon's mission requires that we honor all of these interests, pursuing 
responsible economic development, while at the same time protecting and 
enhancing our health and welfare, our culture, and our lands and 
resources.
Natural Resource Development Creates Substantial Benefits for Doyon and 
        Our Alaska Native Shareholders
    Alaska's oil and gas industry is important to Doyon. We have built 
a healthy and sustainable business that employs hundreds of our Alaska 
Native shareholders and gives them career opportunities. Many of our 
positions are well-paying blue collar jobs, something that seems 
increasingly rare these days. It has also been a profitable business 
that allows us to fund scholarships and training opportunities for our 
shareholders and to pay dividends.
    The economic impact of Doyon, together with other local Alaska 
Native organizations hit $1.05 billion in 2016. In Doyon's fiscal year 
2019, we employed 968 employees of which 316 were Doyon shareholders.
    In fiscal year 2019, Doyon contributed $2.4 million to our 
affiliated education foundation, the Doyon Foundation, and to other 
nonprofits, cultural programs, and Alaska Native Tribes. The $2 million 
donation to the Doyon Foundation included donations for the endowment, 
operating expenses and scholarships, and for the Athabascan language 
revitalization program run by the Foundation, where we are working to 
enhance 11 Alaska Native languages. The contribution is possible, in 
large measure, because of our oil and gas services companies.
    As an Alaska Native regional corporation, Doyon also shares our 
profits with our shareholders. We do this through a settlement trust 
that was created by a vote of our shareholders in November 2018. The 
purpose of the Doyon Settlement Trust is to promote the health, 
education, and welfare of its beneficiaries, and to preserve the 
heritage and culture of Alaska Natives. It accomplishes this by making 
distributions to its beneficiaries (shareholders). A cash distribution 
to shareholders was made in FY2019 totaling $13 million from the Doyon 
Settlement Trust in December 2018, and a second distribution totaling 
$13 million was paid on June 3 of this year. Much of the profit Doyon 
makes and that supports these distributions is from our oil and gas 
contracting business.
    Doyon's shareholders are not the only Alaska Natives that benefit 
from oil and gas and other energy development. Subsidiaries of a number 
of other Alaska Native corporations provide services to the industry on 
the North Slope. The State as a whole benefits from new development. 
Each new development results in new jobs for Alaskans, tax revenue for 
the State, and potential profits for Alaska Native corporations and 
other companies in the industry. This results in continued services for 
our shareholders and Alaska citizens.
    The broader Alaska Native community also benefits from energy 
development through Sections 7(i) and 7(j) of ANCSA, a unique revenue-
sharing mechanism included by Congress in ANCSA by Congress to help 
ensure that all Alaska Natives benefit from resource development on 
ANCSA lands. Under Section 7(i), all regional corporations share 70 
percent of their net revenue from timber and subsurface mineral 
resources developed on their lands with the other Native regional 
corporations; and, under Section 7(j), each regional corporation 
annually shares 50 percent of the money received under Section 7(i) 
with all of the village corporations in its region. Between 1982 and 
2015 over $2.5 billion cumulative was shared through the 7(i) formula, 
and oil and gas resources (56 percent) were from oil and gas resources.
Meaningful Outreach to and Engagement with Potentially Impacted Alaska 
        Native Interests is Essential
    Both as a developer of energy projects and an organization whose 
direct and shareholder socioeconomic and cultural interests may be 
affected by proposed energy development, Doyon recognizes the critical 
importance of meaningful outreach to and engagement with Alaska Native 
interests, including potentially impacted Alaska Native villages, our 
Tribes, and Alaska Native corporations.
    Indeed, Doyon often participates actively in land management 
planning and other agency processes to ensure that those processes are 
consistent with and protect Alaska Native socioeconomic and cultural 
interests, such as subsistence use and access. In Executive Order 
(``EO'') 13175, Consultation and Coordination with Indian Tribal 
Governments, the President required Federal agencies to implement an 
effective process to ensure meaningful and timely consultation with 
tribes during the development of policies or projects that may have 
tribal implications. Tribal consultation is intended to assure 
meaningful tribal participation in planning and decision-making 
processes for actions with the potential to affect tribal interests. 
While EO 13175 applies specifically to federally recognized tribal 
governments, pursuant to Public Law No. 108-199, as amended by Public 
Law No. 108-447, Congress specifically extended these obligations to 
Alaska Native corporations, requiring the Office of Management and 
Budget (``OMB'') and all Federal agencies to ``consult with Alaska 
Native corporations on the same basis as Indian tribes under Executive 
Order No. 13175.''
    In accordance with this mandate, in August 2012, the Department of 
the Interior (``DOI'') issued its Policy on Consultation with Alaska 
Native Claims Settlement Act (``ANCSA'') Corporations. In this Policy, 
the Department purported to ``recognize[] and respect[] the distinct, 
unique, and individual cultural traditions and values of Alaska Native 
peoples and the statutory relationship between ANCSA Corporations and 
the Federal Government.'' Thus, the Policy states that ``[w]hen taking 
Departmental Action that has a substantial direct effect on ANCSA 
Corporations, the Department will initiate consultation with ANCSA 
Corporations.'' In recognition that ``Federal consultation conducted in 
a meaningful and good-faith manner further facilitates effective 
Department operations and governance practices,'' it further commits 
that the Department will ``identify consulting parties early in the 
planning process and provide a meaningful opportunity for ANCSA 
Corporations to participate in the consultation policy.''
    This process provides an important mechanism for Doyon and other 
ANCs to participate in Federal land management and project permitting 
processes related to energy development that could impact our ability 
to fulfill the purposes for which we were established under ANCSA and 
to protect and advance the economic, social, and cultural interests of 
our shareholders. It allows us to help ensure that the interests and 
concerns of Alaska Natives and their communities are meaningfully 
considered, and that impacts are appropriately mitigated.
Doyon is at the Forefront of Efforts to Develop and Deploy New 
        Technologies to Reduce Impacts
    The industry in Alaska has made great strides toward responsibly 
designing projects with minimal impact on the environment, wildlife, 
and subsistence activities. And we at Doyon are proud to be at the 
forefront of developing and deploying new, modern technologies to help 
reduce the impacts of energy development.
    New technologies help minimize the footprint and impacts of new oil 
and gas development. When oil companies developed Alaska's Prudhoe Bay 
oil field in the early 1970s through the 1980s, they had to drill wells 
straight down and the spacing of the wells on the surface was usually 
about 120 feet. The roughly 3,000 wells sunk at Prudhoe Bay and their 
spacing caused the surface development there to affect about 19,000 
acres.
    Technological advances made since the Prudhoe Bay oil field's 
development in the 1970s have resulted in increased oil recovery rates 
from fewer oil wells with far smaller surface impacts as a result of 
fewer and smaller drill pads. The technology has resulted in 
dramatically less overall surface disturbance, meaning far less impact 
on wildlife habitat and other resources.
    Today's drilling rigs can easily drill wells from a single pad that 
can access over 100 square miles. That means that pads can be spaced up 
to 10 miles apart and habitat between pads can be protected with little 
or no surface disturbance. One of Doyon's wholly owned subsidiaries, 
Doyon Drilling, Inc. (``DDI'') has played a significant role, and 
continues to lead its industry, in innovation and the adoption of this 
new technology. DDI currently has over 300 employees. DDI has 
demonstrated our commitment to remain competitive in the industry by 
continually reinvesting in our employees and rigs. Investment and 
innovation in our fleet has helped to make our rigs more efficient and 
protective of the environment and local communities.
    As an example of the implications of these innovations, Doyon's Rig 
142, in 2017, drilled a penta-lateral well in the Kuparuk field on 
Alaska's North Slope. Five production wells were drilled from a single 
surface well bore. Doyon directionally drilled each of the legs of the 
penta-lateral well.
    DDI's Rig 26, an extended reach rig, to be commissioned into 
service on the North Slope later this year. Rig 26 will be able to 
drill up to 35,000 feet horizontally. That capability will allow the 
rig to drill wells covering 125 square miles from a single surface well 
pad. For perspective, that means that Rig 26 could drill horizontally 
from Capitol Hill in Washington, DC and hit a target the size of a 
small room at the National Harbor Resort and Convention Center on the 
Potomac River, 6\1/2\ miles away.
    Doyon's Rig 26 will allow our client to develop known but currently 
untapped oil resources from existing surface infrastructure. In other 
words, our client will not need to build any new pads, roads or 
pipelines to produce known oil reserves.
    As renewable energy resources are developed, we may or may not see 
continued need to develop nonrenewable fuels. But natural gas, at a 
minimum, has an important role to play as a ``bridge fuel'' in any 
transition from fossil fuels to intermittent renewable resources like 
wind and solar. And the need for nonrenewable resources will continue. 
After all, wind and solar require an enormous amount of copper. Lithium 
batteries require an enormous amount of cobalt. All of us must weigh 
the trade-offs between renewable energy and mining. Whatever our 
Nation's energy mix may be at any given time, environmental justice 
demands that we continually look for better ways to both protect and 
serve the needs of our communities at the local level.
    In conclusion, as established by Congress, Doyon and other Alaska 
Native corporations have a unique perspective on these issues. We were 
created both to develop our land and resources economically for the 
benefit of our Alaska Native shareholders, as well as to protect our 
cultural heritage and preserve our lands and resources for the benefit 
of future generations. The responsible development of energy resources 
and infrastructure in Alaska is part of our DNA. We have an obligation 
to both engage in meaningful outreach when we are in a project 
developer role; and we have an obligation to seek meaningful 
participation to protect the interests of Doyon and our shareholders 
when Federal agencies' and third party activities implicate our 
interests.
    Energy resource and infrastructure development provides employment 
opportunities and contributes essential economic resources to meet 
public health needs and to otherwise enhance the general health and 
well-being of Alaska Natives and others in the State. It is our 
communities in Alaska that are best positioned to judge how these 
activities move forward and how impacts from them are appropriately 
addressed and mitigated. Environmental justice demands fair treatment 
and meaningful involvement of vulnerable populations, regardless of 
their views; it should not be viewed narrowly as a means to block 
energy resource and infrastructure development.
    Thank you for the opportunity to testify today. I would be pleased 
to answer any questions the members of the Subcommittee may have.

                                 ______
                                 

    Mr. Lowenthal. Thank you, Ms. Obed. Thank you for being the 
witness that tried to keep it within 5 minutes also. I 
appreciate that.
    I thank all the panel for your testimony. I want to remind 
Members now that Committee Rule 3(d) imposes a 5-minute limit. 
I am going to let you also go over by a little bit, but try to 
keep it as close to 5 minutes as possible. I am going to 
recognize Members for any questions they may wish to ask the 
witnesses.
    I am going to recognize Representative Levin for the first 
5 minutes. Welcome, Representative.
    Mr. Levin. Thank you very much, Mr. Chairman. Great to see 
you. Good to see my colleagues. And I want to thank you for 
holding today's hearing. And I really want to thank the 
witnesses, both for their activism and for their testimony. And 
I wanted to start with a question for Ms. Patterson.
    From what I have read, the African American community not 
only suffers from higher rates of pollution from fossil fuel 
infrastructure but, on average, they also pay higher home 
energy bills than white people.
    Ms. Patterson, what is the better option, in your view, for 
addressing these inequities, expanding use of fossil fuels or 
investing in clean energy and energy efficiency?
    Ms. Patterson. Thank you so much. I appreciate the 
question, Representative Levin.
    So, yes, for us, because of all of the other challenges 
around pollution from fossil fuel-based energy production, we 
definitely find that increasing investments in energy 
efficiency and clean energy is better for the well-being of our 
communities, both because of investing in energy efficiency, 
reducing the amount of energy that needs to be produced in the 
first place as well as reducing the bills that folks have to 
pay and investing in clean energy removes the burden of 
pollution that we have in our communities and also offers an 
opportunity for ownership of the energy infrastructure, which 
also increases financial security. Thank you.
    Mr. Levin. Thank you for that, Ms. Patterson.
    Ms. Prochnik, do you agree with that, and do you think that 
clean energy offers the best way to reduce the electricity 
bills for low-income people?
    Ms. Prochnik. Thank you, Representative Levin. Yes, I do 
agree with Jacqui. I think she makes valid points that need to 
be heard and recognized. All of her points that she raised 
about acknowledging what needs to be done in low-income and 
disadvantaged communities, starting with energy efficiency 
conservation and helping fund a lot of the initiatives, is very 
beneficial.
    Mr. Levin. Expanding on that, what role does transmission 
play in that effort? Could more efficient transmission planning 
and integration with renewables help lower household 
electricity bills, as well?
    Ms. Prochnik. Yes, thank you again for that question. 
Transmission does play a role. It brings a lot of access to 
renewable energy that is on public lands across the country.
    So, transmission lines help bring inexpensive solar and 
wind to urban centers, and it is a great way to bring resources 
from different communities together. It also provides a great 
way for reliability and really making use of our existing 
right-of-way system in our transmission lines.
    Mr. Levin. I wanted to ask you also, Ms. Prochnik, about 
your time at the Department of Energy. I think you worked on 
the Section 368 West-Wide Energy Corridors. Could you describe 
what worked and what didn't work with that project and how 
updated corridors will help our transition away from fossil 
fuels and toward a clean energy future?
    Ms. Prochnik. Thank you for the question. I did work at the 
Department of Energy, enjoyed my time there, learned a lot. And 
I think bringing together agencies, bureaus, and offices who 
had never really worked together before and had competing 
interests was a challenge, but we worked through the various 
expectations and found a common purpose.
    We still missed sections that, if we would have been more 
inclusive, we would have produced a much better product. The 
updated report, which I look forward to reading, should be 
built on inclusive ``Smart from the Start'' planning and really 
have a more inclusive component for environmental justice, 
frontline, and tribal interests.
    I hope they have also looked at the expanding need for new 
corridors in appropriate locations to access areas with high 
renewable energy potential and low-conflict renewable energy 
zones.
    Mr. Levin. Thank you for that. What are the benefits to 
developers of working inside these designated corridors, and 
what are the environmental benefits?
    Ms. Prochnik. There are many benefits to working inside 
these corridors because you have had the agencies work together 
and coordinate and streamline criteria. There could be a lot 
more benefits of more dialogue and discussion and more 
opportunity for public comment. It does help the process in 
time, that since you are coordinating, you can decrease the 
long lead time to build transmission, but I think there needs 
to be more on inclusivity.
    Mr. Levin. Thank you, Ms. Prochnik. Your work at DOE 
reminds me of the Public Land Renewable Energy Development Act, 
the bill that I have introduced with Ranking Member Gosar. Our 
bill provides a ``Smart from the Start'' planning framework for 
renewable energy generation on our public lands. And that is 
better for developers and better for consumers and ultimately 
will help facilitate more renewable energy projects.
    I am very pleased that our Committee unanimously approved 
the bill, and I hope it will be considered soon on the House 
Floor.
    Mr. Chairman, I will yield back.
    Mr. Lowenthal. Thank you, Representative Levin.
    I now recognize Ranking Member Gosar for his 5 minutes of 
questioning.
    Dr. Gosar. Thank you, Chairman.
    And my friend from California, it would have been nice to 
see in the infrastructure bill our full bill placed in there, 
not excluding Forest Service, because we are stewards of the 
Federal inventory, and we need to have everything on the table. 
And I think Ms. Prochnik would actually agree on that.
    My question is for Ms. Obed. Is it a one-size-fits-all, 
that we can't have our cake and eat it too? Isn't there a way 
that we can actually have energy production and still protect 
the environment? As particularly a Native American, you are one 
with nature. Tell us your aspects of having it both ways.
    Ms. Obed. Thank you, Ranking Member Gosar. I would agree 
that oil and gas development will continue to be our ongoing 
business model looking forward into the future. We do support, 
as you mentioned, it is not a one-size-fits-all type of deal. 
You have to look at what fits each community and look at those 
considerations as we go forward and develop.
    Here in Fairbanks, I burn diesel at my house. And if you 
move out to more areas into rural Alaska, they are burning 
diesel. And until it is economically feasible to do more of the 
renewable energy, I don't really see it transitioning very 
quickly to a lot of renewable resources until we have a plan 
that tells communities on how to transition. Without a plan, it 
is not very feasible to say we are going to transition.
    Dr. Gosar. So, that brings me to my point. The weakest link 
in renewable energy is batteries, is base load power. We have 
tons of power during the 11 to 6 o'clock period of time, and we 
have no place to actually put it. So, the batteries are 
actually problematic because they are the weak link in here.
    That is going to require a lot of critical minerals. How do 
you see that playing out within your Alaska domain?
    Ms. Obed. As I mentioned, we do have growing mineral 
import/export opportunities on land. We have 12.5 million acres 
of land, some of which will be for mineral development. And 
what we have seen is the push for renewable energies rise with 
increased investment in minerals export. People are looking for 
gold and copper, so it is definitely--the transition has 
benefited more people. So, if you are looking for renewable 
energy, it is driving interest and investment in minerals for 
construction.
    Dr. Gosar. Now I want you to tell us a little bit about the 
corporation set up, because the tribes are in charge of their 
resources, are they not, and they bid it out. Can you tell us a 
little bit about that, that you are empowered by overseeing the 
natural resources and how that parlays into shared revenues.
    Ms. Obed. Sure. I will do my best. There are lots of Native 
tribes in Alaska, and there are lots of corporations, and I am 
a tribal member, and I am a chairwoman member.
    Doyon is an Alaskan Indigenous corporation and one of the 
things that is required of the 12 regional corporations is 
revenue-sharing. So, if there is mineral resource development 
on Alaskan Native land from timber, oil and gas, or mineral, 
there is a requirement that we share 70 percent of the profit 
earned from these natural resources across the state. So, if 
there is development of resources on Doyon land, Doyon would be 
responsible for sharing those revenues with other Alaskan 
corporations who are in the state, both regional and village.
    Dr. Gosar. I want to get back to renewable energy. Right 
now, in Alaska, you have lots of daylight, right? Very little 
dark. But in the wintertime, you have lots of dark, very little 
sunlight.
    So, that makes it very problematic when you are looking at 
natural resources or things like solar and wind. However, 
geothermal could also be an opportunity. But that is part of 
the problem, is it not?
    Ms. Obed. I think it is due in large part on how many 
people live in each community and what resources are put aside. 
Geothermal is only available on microgrids, and don't benefit a 
large number of people across a large geographic area.
    Similarly, we have solar panels on our roof, and I think 
the technology there is growing every day, but I think it has a 
very modest impact to our building. It works more in the summer 
than the winter, but, really, in the winter what you need is to 
focus on heat and that is really a mixed bag, in terms of 
looking at energy you are using.
    Dr. Gosar. Ms. Obed, thank you so very much. Thanks for 
your time. Wish I was in Alaska. Talk to you soon.
    Mr. Lowenthal. Thank you both for those questions.
    I now recognize Representative DeGette for 5 minutes of 
questions.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    And I love Alaska too, but I am glad to be in Colorado 
right now. And I do have to say, as what appears to me to be 
the only female Member of Congress on this hearing, I am really 
proud of the fact that every single one of our witnesses 
talking about environmental justice is a woman. And for you 
guys--you know, this doesn't happen for me very often. Every 
one of you was a powerful, powerful witness, talking about how 
important these issues are to the health of our families and 
future generations, and I want to thank you.
    Ms. Patterson, we saw you last month at the Energy and 
Commerce, Energy Subcommittee meeting, so welcome back. Glad to 
see you again.
    And, Ms. Rose, I want to tell you, your story was so 
powerful to me because I represent Denver, Colorado, and we 
have a lot of environmental justice areas in my district. In 
particular, we have an area up in the northern part of my 
district that is right adjacent to some industrial areas, 
Swansea, Elyria, and Globeville.
    And the residents who live in these areas, they tend to be 
communities of color, lower income neighborhoods, but very 
solid historic communities of home ownership, people who have 
lived there for a long time and who have been subjected for 
many generations to environmental degradation in their areas. 
And, of course, their kids have health problems. There is an 
increase in asthma. All the things that you talked about today 
in your testimony, we are seeing in these communities in my 
district.
    So, I want to ask a little bit to some of the witnesses 
about this, and I want to start with you, Ms. Patterson. When 
you hear something--and let me just back up for a minute, one 
of the issues I have been focusing on lately right near my 
district is there is a Suncor refinery. There is a refinery 
right near these neighborhoods.
    Ms. Patterson, when you hear about something like a 
refinery located right next to a minority or low-income 
community, does that set off any alarm bells for you?
    Ms. Patterson. Yes, thank you. As we detailed in our 
``Fumes Across the Fence-Line'' report, from reviewing multiple 
communities that are on the fence lines of these oil and gas 
refineries, we have found, along with our work with groups like 
Physicians for Social Responsibility, the National Medical 
Association, the Clean Air Task Force, that the health impacts 
of being on the fence lines of these facilities are extremely 
detrimental. There is a pattern of cancer clusters, other types 
of illnesses, asthma clusters, and so forth that are causing 
morbidity and mortality for our communities.
    Ms. DeGette. And, you know, that is what we have seen as 
well. And then just to add, the Suncor plant has a huge pattern 
of air quality violations. And the standard that they had was a 
standard that the state of Colorado let them set. So, they were 
complying with their own standard that they set, and what the 
standard was for was hydrogen cyanide. And I actually 
introduced Federal legislation to set a Federal standard that 
people would have to comply with.
    And I guess I just want to ask you, how important is real-
time monitoring and reporting of pollution if there is an 
energy infrastructure right next to these neighborhoods, these 
really vulnerable neighborhoods?
    Ms. Patterson. Yes, extremely important because, for one 
thing, you have different times when there is an escalation of 
emissions. So, we really need to know at all times what is 
happening at these plants. If there are flaring or peaker 
plants that are operating at some times and not others, we need 
to know.
    Ms. DeGette. We have to look at the cumulative impacts as 
well, right, of all sorts of pollution?
    Ms. Patterson. Yes.
    Ms. DeGette. Recently, I introduced the Clean Energy 
Innovation and Deployment Act to drive the deployment of clean 
energy and to also provide assistance to low-income households 
and help energy workers in communities.
    I am wondering, Ms. Prochnik, if you can tell us why it is 
important to seek environmental justice in communities when we 
are looking at the transition to a clean energy economy.
    Ms. Prochnik. It is critical, and thank you for the 
question. I think the clean energy industry should start with 
three steps: acknowledging and incorporating environmental 
justice principles and the fact that racism exists and work to 
change this; conduct conclusive policy discussions and change 
the process and decision making and being more inclusive; and 
provide needed data to all decision makers so they can make 
informed choices in planning, standard development, and 
compliance.
    Ms. DeGette. Thank you.
    I just have one last question.
    Ms. Patterson, is climate change an environmental justice 
issue?
    Ms. Patterson. Absolutely, because we see across the 
continuum where communities of color, frontline communities, 
are most impacted, from the pollutants that cause climate 
change to the impacts of climate change, whether it is shifts 
in agricultural yields, sea level rise, or disasters. We see 
how communities, vulnerable communities, politically and 
economically disenfranchised communities, are deeply impacted 
disproportionately.
    Ms. DeGette. Thank you so much.
    Mr. Chairman, thank you for having this important hearing. 
It is really important, and I appreciate it.
    I yield back.
    Mr. Lowenthal. Thank you.
    I now recognize Representative Westerman for 5 minutes of 
questions.
    Mr. Westerman. Thank you, Mr. Chairman, and greetings from 
the front lines of Washington, DC, where I believe 
congressional business should take place.
    There has been a lot of talk about social and environmental 
justice in this hearing today, two things I think we are all 
concerned about, and it reminded me of an article that I read a 
few years ago that Peggy Noonan wrote in the Wall Street 
Journal where she talked about two classes of people in this 
country. She talked about the protected and the unprotected.
    In her words, she said, ``The protected are those who make 
the rules. The unprotected live with those rules.''
    She said, ``The protected are the accomplished, the secure, 
the successful, those who have power or access to it. They are 
protected from much of the roughness of the world. More to the 
point, they are protected from the world they have created. 
Again, they make public policy and have for some time.''
    In March of this year, Peggy Noonan did a follow-up to that 
article, and within 1 day of that, a writer for the New York 
Times, Bret Stephens, he quoted that article, and he talked 
about not the protected and the unprotected but the remote and 
the exposed.
    And I think that is what we are talking about here today 
are those people who are on the front lines and those people 
who are able to work from the basements of their homes who 
don't have to get out to make a living.
    And I wanted to ask Ms. Obed this question. If some of 
these heavy-handed policies proposed by the left were 
implemented, what would happen to the hardworking men and women 
of the Doyon Regional Corporation who are on the front lines 
every day so we can do our jobs remotely by WebEx from the 
safety of our office?
    Ms. Obed. Thank you for the question, Representative 
Westerman.
    I think Doyon, as an Alaskan Native corporation, makes 
decisions based on the long term, we don't have quarterly 
reports. As an Alaskan corporation, we can't buy and sell their 
stock, so we make long-term decisions. We really aim to hire 
our Alaskan shareholders. I actually started at Doyon as an 
intern years ago, and [inaudible]----
    Mr. Westerman. Ms. Obed, if I can interrupt. It is 
inaudible. If you can answer that and submit it to the record. 
I think it is just a poor connection. That is one of the 
problems of doing these types of hearings.
    I am going to move on. And talking about the Atlantic Coast 
Pipeline and looking at it in the light of environmental 
justice and social justice, let's look at it environmentally. 
This pipeline was going to be carrying clean domestically 
produced U.S. natural gas. If you look at the biggest advocacy 
group for the Appalachian Trail, I would say that is the 
Appalachian Trail Conservancy, and in an NPR article in 
February 2020 that I would like to submit for the record, 
called ``The Supreme Court Pipeline Fight Could Disrupt How the 
Appalachian Trail is Run,'' the Appalachian Trail Conservancy 
said that they do not oppose the pipeline.
    The group warns that a ruling could upend the complicated 
structure that allows them to maintain the trail. The 
Appalachian Trail is being used as a tool to stop it. That was 
a quote from the Appalachian Trail Conservancy. The Conservancy 
said that it saw complications from the case as the Forest 
Service asked them to halt maintenance due to ongoing 
litigation.
    Let's look at it from a social justice standpoint. There 
were going to be 17,000 well-paying union jobs that were lost 
because this pipeline would stop. The potential benefits of the 
Atlantic Coast Pipeline for Union Hill were that the project 
sponsors created a local development corporation and had 
prepared to offer $5 million for projects like a fire station, 
a health clinic, recreational facilities, and job training for 
local residents to work on the pipeline. There is currently 10 
percent unemployment in the area. The project sponsors were 
offering well-paying union jobs during the pandemic. Local 
manufacturing facilities have been able to switch from diesel 
to natural gas, which would improve the environment. And the 
list goes on and on, on both the social and environmental 
justice benefits of this project.
    And as the left is taking a victory lap on this project 
cancellation, I have a question. I guess I could open it to the 
whole panel, but I want to start with Ms. Prochnik. Given the 
documented environmental, social, and economic benefits of the 
pipeline, are you celebrating a victory for the unprotected and 
exposed who deserve justice or the remote and protected like 
yourself who got their way on this project?
    Ms. Prochnik. Thank you, Representative, for the question.
    I do think that natural gas is a fossil fuel, and I do 
think that we need to transition to a clean energy economy.
    Mr. Westerman. I want to stop there for just a second.
    You can put this in a written statement because you 
probably don't have time to answer it, but please explain to 
me--and I am a big supporter of renewable energy--how do you 
have renewable energy without coal, natural gas, or nuclear 
power? Now you can carry on.
    Ms. Prochnik. I would love to provide a written statement, 
too, with a lot more data and background, but I will point out 
that it can be done. Renewable energy----
    Mr. Westerman. I am an engineer, and I would love to see 
that. I would love to read that data.
    Ms. Prochnik. OK.
    Mr. Westerman. Renewables are less than 10 percent of the 
mix right now.
    Ms. Prochnik. Actually, it is almost 25 percent, and they 
are very reliable. In the last 5 years, we have realized that 
renewables provide ancillary services to keep the lights on. 
And when you combine long duration and short duration storage 
with renewable energy, you can get to 100 percent clean coal, 
and the grid will work because we have grid operators.
    Mr. Westerman. If you had the storage, which we don't.
    Ms. Prochnik. And wind and solar, and geothermal and hydro, 
and we do. Our Nation has wonderful natural resources that are 
clean that we can use.
    Mr. Westerman. Yes.
    I am way over time, Mr. Chairman. So, I will let you decide 
whether you want to let others answer or move on.
    Mr. Lowenthal. Actually, you each can have a very short 
answer if you want to ask others, but you are over.
    Does anyone else on the panel want to answer that?
    Ms. Patterson. I would just point to data in terms of the 
work that comes out of Stanford, I think it is Dr. Mark 
Jacobson, on some of the scenarios for how we can actually 
achieve 100 percent renewable, given the technology at hand and 
the technology that is in the pipeline, so to speak.
    Thank you.
    Mr. Lowenthal. Thank you.
    I am going to let the other panelists answer it in a 
written form because we have gone over.
    And I am going to move forward to Representative Huffman. 
Representative, you have 5 minutes.
    Mr. Huffman. Thank you very much, Chairman Lowenthal. And 
just following on my colleague, Bruce Westerman's interesting 
questions just now, I am coming to you from Northern California 
where the lights are actually on in my house, and it is an 
amazing thing because that is happening with 100 percent clean 
energy here in Marin County. We have a community choice 
aggregator, Marin Clean Energy, and, amazingly, they are able 
to generate electrons using 100 percent clean renewable energy 
for me and for much of Northern California.
    So, there is really no mystery to it, and I know the COVID-
19 crisis has canceled a lot of our plans. I had hoped to have 
Mr. Westerman out to my district for a district exchange as 
part of the Bipartisan Policy Institute. I now know to include 
more than just forestry in that visit. I want to show him how 
we actually have a modern clean energy grid and that we can do 
this.
    So, I appreciate that question.
    Mr. Chairman, to the point of this hearing, I think we have 
a series of recent decisions involving pipelines that highlight 
the reality that impacts on local communities, as well as basic 
economics, are contributing to the movement away from these 
dirty destructive fossil fuels and away from unnecessary and 
dangerous pipelines and toward these cleaner energy, climate 
friendly, and environmentally just practices that many of us 
want to see.
    I also know that this pandemic has, unfortunately, shed a 
light on deep and pre-existing racial disparities, and I think 
we have a moment right now to really consider the voices of 
minority and tribal communities, how they have been 
disproportionately impacted by harmful fossil fuel pollution 
and how we can use all of this societal momentum to advance our 
transition to safe clean energy and to include our public lands 
in that.
    I would like to start, if I could, with a question for Ms. 
Prochnik. I am interested in the fact that we continue to hear 
these dismissals of clean energy. You heard it just now--you 
can't get there from here, you can't balance the grid, the sun 
doesn't always shine, the wind doesn't always blow. How do 
these characterizations square with the reality of our 
increasingly nimble interconnected grid, the magic of me being 
able to turn on my light switch right over here and to actually 
power my home and much of the North Coast of California with 
100 percent clean energy?
    And then, while you are answering that, could you speak to 
how transmission and an increasingly interconnected grid plays 
a role in making this magic happen?
    Ms. Prochnik. Sure. Thank you, Representative.
    And it is great that you have solar on your roof, and I 
hope that more communities can have that benefit because there 
are still a lot of inequities out receiving renewable energy, 
but it is great in that we do have clean energy.
    As you pointed out, when the wind dies down, grid operators 
do a fantastic job of moving power around the high voltage 
transmission systems. They are linked over hundreds of miles on 
the West Interconnection, for example, moving wind from the 
Rockies, hydro in the Northwest, solar in the Southwest.
    Back when we had the solar eclipse, that was a huge deal in 
our country, I stood in the control room of Peak Reliability 
and watched the operators get prepared for watching 9,000 
megawatts of solar come off the grid and then watch it come 
back on. It is amazing during this huge, what could have been 
an epidemic, there was no blackout. The operators, the 
agencies, the states, the utilities all worked together for 
almost a year to prep for this.
    We can do this. We have the tools. We have the information. 
We need to include more people at the table so we can get even 
better decision making, but we know how to manage the grid, and 
as we transition, we can do this in a much more reliable way.
    Mr. Huffman. I believe during your time at the Department 
of Energy, you worked on efforts to identify West-Wide Energy 
Corridors and to do a little bit more preplanning so we could 
bring more of this clean energy on line and make the grid work 
without some of these false choices we hear, that you have to 
have coal and you have to have natural gas.
    I would like to ask you what worked and what didn't with 
that energy corridor project and how updated corridors can help 
our transition away from fossil fuel.
    Ms. Prochnik. Thank you for the question.
    The clean energy economy will only be successful if it is 
truly inclusive of all of the communities affected. It is 
really important that the ``Smart from the Start'' funding that 
I mentioned in my testimony from NEPA needs to be inclusive. 
There were conflicting missions and goals that we as different 
agencies had to come together on. But we still missed huge 
areas because we didn't have all of the resources at the table. 
So, really incorporating environmental justice principles, 
frontline communities, and a more diverse group to be part of 
the planning inclusive is really critical.
    Mr. Huffman. I am out of time, but thanks so much for that 
answer. And thanks for the hearing, Mr. Chairman. I yield back.
    Mr. Lowenthal. Thank you.
    I now recognize Representative Hern for your questions. 
Welcome.
    Mr. Hern. Mr. Chairman, Republican Member Gosar, thank you 
for this opportunity. Thank all of the witnesses for being here 
today. While we may disagree totally on some of the positions 
that are on this Zoom meeting, I certainly appreciate one's 
expertise coming to bear.
    I do find it interesting that some of the companies that we 
know as some of our greatest companies in the world, I will use 
one in particular, one we all know very well in Google, has its 
largest data server farm in the world literally 30 miles from 
my house here in what probably many of the folks on this call 
that are representing California would say is probably one of 
the dirtiest states in the world. So, it is just sort of 
interesting how it is literally sitting a thousand yards from a 
natural gas plant so they have reliable energy, but I digress.
    As a Member, as an engineer as well--I am not a forestry 
engineer as my colleague from Arkansas is--but an engineer who 
appreciates technology. I am a Member who has stated many times 
that I have an all-of-the-above approach to energy production. 
I actually spent most of my life within about 15 miles of a 
nuclear power plant in Arkansas, so I know the reliability you 
get there and the importance of how clean that energy is. And 
my colleague from Arkansas now represents that area, so we have 
a lot in common.
    I am very interested in listening to what you all have to 
say about energy initiatives and production, but we also have 
to talk about costs around this. We have had these dialogues 
before in hearings in the past, and I think it is interesting 
how we talk about the sustainability, but we don't talk about 
the costs, the hard costs associated with what many of the 
minority in low-income areas would have to pay for these costs, 
assuming you are not seeking a Federal subsidy or a state 
subsidy to offset those costs. Because, at the end of the day, 
as we have talked about many times over in our hearings, it is 
more costly to do some of these New Green Deal ideas.
    As we increase the world's carbon footprint by pushing 
production to countries with minimal regulations, as we move 
folks out, we are not isolated from CO<INF>2</INF> emissions. 
While we may be lowering, which we have, other parts of the 
world are making up for that exponentially.
    We need to stop making America more reliant on foreign 
adversaries for energy production as we have talked about 
changing some of our refineries so that we use more of our 
fossil fuels here as opposed to bringing in heavy crudes from 
around the world, to put refined products back out around the 
world.
    All of this is applicable to a bill introduced by Chairman 
Grijalva in the so-called Environmental Justice for All Act, a 
veiled attempt by the Chairman to stop American energy 
production, and my colleagues will claim this bill implements 
necessary reporting requirements to gauge the health impacts of 
energy production. What they won't tell you is that the 
considerations already there are unnecessary as they are 
already addressed in NEPA, the Clean Air Act, the Clean Water 
Act, and other applicable statutes.
    What they also won't tell you is that these assessments 
will not consider benefits of proposed energy infrastructure 
projects, including thousands of well-paying jobs, access to 
reliable or affordable energy for communities, and the 
prevention of energy poverty.
    The same is true in this hearing today. This is not an 
effort to find solutions to environmental justice. This is an 
attempt by Democrats to bash the fossil fuel energy production 
in America.
    And I have a question today for Ms. Obed. Through your 
work, your business generates economic opportunities for its 
shareholders through responsible natural resource development. 
Could you explain these benefits of natural resource 
development for tribal communities in Alaska?
    Ms. Obed. Yes, Representative. Thank you for the question.
    At Doyon, we seek to provide benefits to our shareholders 
through jobs, wages, charitable contributions, donations, and 
scholarships for education for our future shareholders. Those 
are the reasons why we have strong shareholder support for a 
lot of the natural resource development projects that we 
participate in.
    Mr. Hern. Thank you so much.
    I appreciate everybody being on here today to express your 
points of view, and it is great to hear some of the benefits of 
energy production, and I hope that my colleagues will 
understand that I see these benefits, too.
    Mr. Chairman, as always, I appreciate being with you on the 
Committee, and I will sell you a razor when we get back.
    Mr. Lowenthal. Well, thank you. Thank you, Representative 
Hern. I look forward to being back with you also.
    I now recognize Chairman Grijalva for 5 minutes of 
questions. Welcome, Chair.
    Mr. Grijalva. Thank you. Thank you for the hearing. I 
appreciate it very much.
    And, first of all, I just want to tell Ms. Rose that I 
wanted to congratulate her for the recent success of the 
cancellation of the Atlantic Coast Pipeline. It is good to see 
her again. I think it is a success story that other people 
across the Nation could learn from, and her leadership and the 
coalition that she was a part of took this environmental 
justice issue of great significance to that community and, with 
persistence, succeeded. And I just want to congratulate her.
    I think that the question that I have, there is no either/
or here. There are some important points. Renewable alternative 
energy is, like it or not, an inevitability for this Nation. 
That is the direction we are going. And much of what we see in 
the decline of fossil fuel in this country, coal being the 
primary one, has to do with the economies of that extraction of 
that fuel and the consumer preferences that are going on 
worldwide and certainly nationwide. And to say that the straits 
that those companies find themselves in is all a consequence, 
including the Atlantic Pipeline and the Dakota Access Pipeline, 
is because of the protests around those issues is disingenuous 
at best. Now, we have all of these bankruptcies going on across 
the country from gas, from fracking enterprises, from 
extraction enterprises, and as they leave, they leave their 
pollution behind, and they leave the bill to the American 
taxpayers to have to clean up after them. And I think, when you 
look at this, it is a much more comprehensive package than a 
simple either/or.
    I wanted to ask, Ms. Patterson, you are probably aware that 
the failure to comply with the National Environmental Policy 
Act resulted in the Dakota Access being shut down. Along with 
my colleague, Representative McEachin, as the Chairman 
indicated at the beginning of the meeting, we want to introduce 
the Environmental Justice For All Act. It is not so-called, it 
is real, and all of us are going to have a chance to deal with 
it in the near future. And to try to get more public input for 
major projects, like oil, gas pipelines, in this instance, and 
begin to address the impacts of environmental discrimination, 
racism, and to deal with the cumulative effect.
    What is your assessment of the bill, and do you think it 
could have a meaningful impact going forward?
    Ms. Patterson. Thank you so much.
    I think that the bill is absolutely critical, having the 
communities, as we have seen from my co-panelists, particularly 
Ms. Rose, that communities know the solutions that work for 
them, and it is really having communities on the front lines of 
making the decisions that result in decisions that are the real 
solutions versus advancing those who aren't of the community 
making decisions for the community.
    So, even when we think about examples like in New York, in 
response to the heat waves, there was a well-meaning attempt 
to--recognizing that cooling centers are difficult in this 
COVID-19 reality, there was a decision to give window units of 
air-conditioning to communities, but because there was that 
dialogue, they heard back from the community that that would be 
great, but we are already suffering from energy burden. So, 
combined with giving the air-conditioning, they also provided 
relief for bills. So, those are the kinds of integrated policy 
making that only results from having community input.
    Mr. Grijalva. And I think, Ms. Prochnik, let me ask you the 
same question essentially that Ms. Patterson just dealt with 
about your assessment of the Environmental Justice for All Act. 
Have you had that opportunity?
    Ms. Prochnik. Thank you, Representative. Thank you, 
Chairman.
    I think the clean energy economy--and I agree with Jacqui 
Patterson because it really is about inclusivity. Clean energy 
economy will only be successful if it is truly inclusive of all 
of the economies affected. For so long energy production 
delivery has focused on depleting the resources from frontline 
communities or burning them with health hazards. For example, 
the Navajo Nation provided land, water, coal, labor and did not 
receive electricity produced from the land. Some utilities 
today are starting to right the wrong, but to be more good 
stewards, we need to demonstrate how the industry is different 
and how environmental justice principles and community voices 
must be included.
    Mr. Grijalva. OK. Thank you very much.
    Mr. Chairman, again, thank you. And this is a very 
important hearing, and I appreciate the witnesses and our 
colleagues that have shown up. Thank you a lot, I appreciate 
it.
    And I yield back.
    Mr. Lowenthal. Thank you.
    I am going to recognize myself now for the final 5 minutes 
of questions.
    And I am going to preface my statement with--because we are 
talking about environmental justice, I want to share with you 
what happened the other night at a community meeting online, 
which was held by having my neighborhood be responsive--Long 
Beach is very unfortunate where I live to have our own health 
department and our director of the health department was there. 
And the first thing, one of the early things that she said was, 
on the west side of Long Beach, which is primarily an 
industrial complex with a lot of stable neighborhoods, 
primarily neighborhoods, people of color, first generation into 
our community--it is the home of the Port of Long Beach, lots 
of the warehouses, distribution centers, all of the rail lines, 
the freeways that lead in and out of the port with large 
numbers of truck traffic. And I was struck when she said the 
life expectancy of someone on the west side of Long Beach is a 
little over 69 years. And then she said when you are talking 
about on the east side of Long Beach, the life expectancy of a 
new child is 86 years. That means just a few miles away from 
me, a child already starts with a life expectancy difference of 
17 years.
    That is unconscionable. I have not been able to get that 
out of my mind for the last week or so. It brings it home to me 
we have this responsibility to ensure that as we do new 
development, new energy, that we make sure that we do not 
repeat some of the mistakes of the past and make it such that 
impacts--I am not saying that people do it deliberately or not.
    I do know that, Ms. Patterson, that you have another 
appointment and you need to depart in 1 minute from this 
hearing. I just want to ask you one quick question. We are 
talking about reducing pollution, helping environmental justice 
communities, primarily low-income minority communities. Can we 
do that in Congress through voluntary actions, or do we really 
need to have State and Federal Government engage in more 
regulatory action? I would like to hear your opinion quickly.
    Ms. Patterson. Thank you. Yes, we absolutely need to have 
mandatory action. Our advocacy has been around renewable 
portfolio standards that are mandatory, energy efficiency 
resource centers that are mandatory, recognizing that without 
having that kind of compelling legislation, that we won't make 
the aggressive shifts that we need to make to take the toxic 
pollution out of these communities and shift us to a new energy 
economy that provides the energy that we need while protecting 
the health and well-being of communities that are currently in 
harm's way.
    Mr. Lowenthal. Thank you.
    And you may leave the meeting. I know you have to leave.
    Ms. Patterson. Thank you.
    Mr. Lowenthal. I would now like to turn to Ms. Rose. First 
of all, I want to thank you for your long-term commitment and 
activism as a volunteer, someone in your community who, as you 
say, you moved to this community to retire, and look what 
happened. You became a community activist. And I want to know, 
what was the pressure? We have heard for years about the needs 
to rush the Atlantic Coast Pipeline because we have a dire need 
for more natural gas. As a local resident, did you feel that 
pressure, that there was some sort of rush to get this pipeline 
approved and it would be better for you just to get out of the 
way because of this?
    Ms. Rose. Thank you for the question. Dominion Energy 
always told us through their mailings, through their 
informational meetings, TV ads, and even a few meetings they 
had in Union Hill, after we raised the poverty awareness here, 
that the gas was needed, would bring jobs and would be 
inevitable. It was as if the pipes were already in the ground. 
Some people believed this, and so they did not feel they could 
resist it.
    Mr. Lowenthal. Thank you for that. So, you did feel the 
pressure?
    Ms. Rose. Yes.
    Mr. Lowenthal. I am really at the end. I have many more 
questions, but I will submit them in writing. I want to thank 
all the panelists. I want to thank all the witnesses. I have 
found this to be an extremely productive hearing, and I like 
the attitude between all of us, even when there were 
disagreements, that we dealt with this in a very positive, 
congenial manner.
    So, with that, I want to say that there is no further 
business----
    Mr. Westerman. Mr. Chairman?
    Mr. Lowenthal. Yes.
    Mr. Westerman. Mr. Chairman, I have some items to submit 
for the record.
    Mr. Lowenthal. Without objection.
    Mr. Westerman. I will start with some articles that 
highlight that access to natural gas continues to be a 
challenge for some minority communities because there is not 
yet pipeline infrastructure connecting those communities to 
natural gas.
    The first article is a Chicago Tribune article, dated 
December 2019, titled, ``Residents of impoverished Pembroke 
Township live without natural gas heat. Now Jesse Jackson is 
joining the push to bring a pipeline to the community.''
    The second article is an Axios article entitled, ``Inside 
Rev. Jesse Jackson's push for natural gas pipeline,'' from May 
2020.
    I would also like to submit for the record a lawsuit filed 
by a group called The Two Hundred. I think my California 
colleagues will recognize that group. I believe it is led by a 
Democratic California assemblyman. It is an organization that 
works on affordable housing issues, and the lawsuit is against 
the California Air Resources Board. In 2018, the suit argued 
that California's climate policies, including a net zero 
requirement for all housing projects for construction for 
operation, were hurting the ability of low-income Californians 
to obtain affordable housing and driving up the cost of 
transportation.
    Also, I have some charts here from the U.S. Energy 
Information Administration. It may be hard to read, but this 
little green slot shows that of all energy consumption, a 
whopping 11 percent of that was from renewables. And you know I 
am a huge fan of renewables, especially biofuels. And 43 
percent of that 11 percent came from biomass.
    And then I also have this additional chart that shows that 
of all electrical generation, there was less than 10 percent 
that came from solar and wind.
    And, finally, without objection, I would like to submit a 
documentary by an icon of the left, Michael Moore, called the 
``Planet of the Humans'' that delves into the fallacy behind 
reducing all carbon emissions by going to things like electric 
vehicles.
    Mr. Lowenthal. Without objection, they are now submitted 
into the record.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. Lowenthal. Again, the members of the Committee may have 
some additional questions for the witnesses, and we will ask 
you as the witnesses to respond to these in writing. Under 
Committee Rule 3(o), members of the Committee must submit their 
witness questions within 3 business days following the hearing, 
and the hearing record will be held open for 10 business days 
for these responses.
    If there is no further business, without objection, this 
Committee stands adjourned.

    [Whereupon, at 2:36 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submissions for the Record by Rep. Westerman

1.   NPR Article--Supreme Court Pipeline Fight Could Disrupt 
How The Appalachian Trail Is Run, Becky Sullivan, February 21, 
2020:

    https://www.npr.org/2020/02/21/807417611/supreme-court-pipeline-
        fight-could-disrupt-how-the-appalachian-trail-is-run

2.   Documentary--``Planet of the Humans'' by Michael Moore:

    https://planetofthehumans.com/

3.   EIA chart--Renewable energy explained:

    https://www.eia.gov/energyexplained/renewable-sources/

4.   EIA data--What is U.S. electricity generation by energy 
source:

    https://www.eia.gov/tools/faqs/faq.php?id=427&t=3

5.   Chicago Tribute article--Residents of impoverished 
Pembroke Township live without natural gas heat. Now Jesse 
Jackson is joining the push to bring a pipeline to the 
community. John Keilman, December 2019:

    https://www.chicagotribune.com/news/breaking/ct-pembroke-nicor-gas-
        jackson-20191217-3lxvyxklwvgshfbxznbh3t5gyy-story.html

6.   Axios Article--Inside Rev. Jesse Jackson's push for a 
natural gas pipeline. Amy Harder, May 2020:

    https://www.axios.com/jackson-natural-gas-3e1af88d-a823-4096-975d-
        c9b0ad207806.html

7.   Lawsuit filed by ``The Two Hundred'' against the 
California Air Resources Board (CARB) in 2018, Superior Court 
of the State of California, Case No. 18CECG01494:

    http://www.thetwohundred.org/wp-content/uploads/2018/07/
        Complaint_signed.pdf

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
